<html>
<title> - GANG DETERRENCE AND COMMUNITY PROTECTION ACT OF 2005</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
          GANG DETERRENCE AND COMMUNITY PROTECTION ACT OF 2005

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 1279

                               __________

                             APRIL 5, 2005

                               __________

                           Serial No. 109-50

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary













                 U.S. GOVERNMENT PRINTING OFFICE

20-388                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




















                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  ADAM SMITH, Washington
MIKE PENCE, Indiana                  CHRIS VAN HOLLEN, Maryland
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                 HOWARD COBLE, North Carolina, Chairman

DANIEL E. LUNGREN, California        ROBERT C. SCOTT, Virginia
MARK GREEN, Wisconsin                SHEILA JACKSON LEE, Texas
TOM FEENEY, Florida                  MAXINE WATERS, California
STEVE CHABOT, Ohio                   MARTIN T. MEEHAN, Massachusetts
RIC KELLER, Florida                  WILLIAM D. DELAHUNT, Massachusetts
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana
J. RANDY FORBES, Virginia
LOUIE GOHMERT, Texas

                   Jay Apperson, Chief Counsel
                  Michael Volkov, Deputy Chief Counsel
                        Elizabeth Sokul, Counsel
                          Katy Crooks, Counsel
                 Jason Cervenak, Full Committee Counsel
                     Bobby Vassar, Minority Counsel

























                            C O N T E N T S

                              ----------                              

                             APRIL 5, 2005

                           OPENING STATEMENT

                                                                   Page
The Honorable J. Randy Forbes, a Representative in Congress from 
  the State of Virginia..........................................     1
The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     3
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan.....................................     5

                               WITNESSES

Mr. Patrick J. Fitzgerald, United States Attorney, Northern 
  District of Illinois, U.S. Department of Justice
  Oral Testimony.................................................     8
  Prepared Statement.............................................    10
Mr. Paul A. Logli, State's Attorney, Winnebago County, Illinois, 
  and President Elect, National District Attorneys Association
  Oral Testimony.................................................    18
  Prepared Statement.............................................    20
Ms. Michelle Guess, Edgewood, MD
  Oral Testimony.................................................    24
  Prepared Statement.............................................    25
Mr. Robert E. Shepherd, Jr., Emeritus Professor of Law, 
  University of Richmond School of Law, Richmond, VA
  Oral Testimony.................................................    26
  Prepared Statement.............................................    27

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable John Conyers, a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................    42
Responses to Questions for the Record submitted by the Honorable 
  Patrick Fitzgerald, U.S. Attorney for the Northern District of 
  Illinois, U.S. Department of Justice...........................    44
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas.............    46
Letter from James D. Fox, Chief of the Newport News Police 
  Department to the Honorable J. Randy Forbes (March 29, 2005)...    48
Letter from Kenneth C. Bauman, member of the Board of Directors 
  for the National Association of Assistant United States 
  Attorneys to the Honorable F. James Sensenbrenner, Jr. (April 
  29, 2005)......................................................    50
Letter from Michael A. Fry, General Counsel, Major Cities Chiefs 
  Association to the Honorable F. James Sensenbrenner, Jr. (april 
  15, 2005)......................................................    52
Letter from Roy L. Burns, President, Association for Los Angeles 
  Deputy Sheriffs to the Honorable F. James Sensenbrenner, Jr. 
  (April 20, 2005)...............................................    54
Letter from Wesley D. McBride, President, California Gang 
  Investigators Association to the Honorable F. James 
  Sensenbrenner, Jr. (April 25, 2005)............................    55
Letter from Eddie J. Jordan, Jr., District Attorney of New 
  Orleans to the Honorable F. James Sensenbrenner, Jr. (April 18, 
  2005)..........................................................    56
Letter from Donald Baldwin, Washington Director, Federal Criminal 
  Investigators Association to the Honorable F. James 
  Sensenbrenner, Jr. (April 22, 2005)............................    57
Letter from Chuck Canterbury, National President, Fraternal Order 
  of Police to the Honorable J. Randy Forbes (April 4, 2005).....    58
Letter from Dennis Slocumb, International Executive Vice 
  President, International Union of Police Associations to the 
  Honorable F. James Sensenbrenner, Jr. (Arpil 26, 2005).........    59
Letter from James J. Fotis, Executive Director, The Law 
  Enforcement Alliance of America to the Honorable F. James 
  Sensenbrenner, Jr. (April 19, 2005)............................    60
Letter from Sheriff Michael J. Bouchard, Vice President, 
  Legislative Affairs, and Sheriff James A. Karnes, President, 
  Major County Sheriffs' Association to the Honorable F. James 
  Sensenbrenner, Jr. (April 20, 2005)............................    61
Letter from Richard Delonis, President, National Association of 
  Assistant United States Attorneys to the Honorable F. James 
  Sensenbrenner, Jr. (May 2, 2005)...............................    62
Letter from William J. Johnson, Executive Director, National 
  Association of Police Organizations to the Honorable F. James 
  Sensenbrenner, Jr. (April 15, 2005)............................    63
Letter from Felipe A. Ortiz, National President, National Latino 
  Peace Officers Association to the Honorale F. James 
  Sensenbrenner, Jr. (April 18, 2005)............................    64
Letter from Thomas N. Faust, Executive Director, National 
  Sheriffs' Association to the Honorable F. James Sensenbrenner, 
  Jr. (April 19, 2005)...........................................    66
Letter from Casey L. Perry, Chairman, National Troopers Coalition 
  to the Honorable F. James Sensenbrenner, Jr. (April 19, 2005)..    67
Letter from Tyrone Parker, Laura W. Murphy, et al. to the 
  Honorable Howard Coble and the Honorable Robert C. Scott (April 
  11, 2005)......................................................    68
Letter from National Hispanic Organizations to the Honorable F. 
  James Sensenbrenner, Jr. and the Honorable John Conyers (April 
  20, 2005 and May 10, 2005).....................................    71
Letter from the Association of Oil Pipe Lines, Business Civil 
  Liberties, Inc., et al., to the Honorable Howard Coble and the 
  Honorable Robert C. Scott (April 12, 2005).....................    75
Letter from Laura W. Murphy, Tonya McClary, et al., to the 
  Honorable Howard Coble and the Honorable Robert C. Scott (April 
  4, 2005).......................................................    79
Letter from Laura W. Murphy, Director, and Jesselyn McCurdy, 
  Legislative Counsel, American Civil Liberties Union to the 
  Honorable Howard Coble and the Honorable Robert C. Scott (April 
  15, 2005)......................................................    82
Letter from Julie Stewart, President, and Mary Price, General 
  Counsel, Families Against Mandatory Minimums to the Honorable 
  Howard Coble and the Honorable Robert C. Scott (April 8, 2005).    87
Letter from the Thomas W. Hiller, II, Federal Public Defender, 
  and Chair, Legislative Expert Panel, Federal Public and 
  Community Defenders to the Honorable F. James Sensenbrenner, 
  Jr. and the Honorable John Conyers (April 21, 2005)............    89
Letter from Members of Congress to the Honorable F. James 
  Sensenbrenner, Jr. and the Honorable John Conyers, Jr. (April 
  19, 2005)......................................................    92
Letter from Leonidas Ralph Mecham, Secretary, Judicial Conference 
  of the United States to the Honorable Howard Coble (April 1, 
  2005)..........................................................    95
Letter from Janet Murguia, President and CEO, National Council of 
  La Raza to the Honorable F. James Sensenbrenner, Jr. and the 
  Honorable John Conyers (April 13, 2005 and May 9, 2005)........    99
Letter from Virginia Coalition for Juvenile Justice to the 
  Honorable J. Randy Forbes (April 4, 2005)......................   103
Letter from Coalition of National and Regional Organizations to 
  the Honorable F. James Sensenbrenner, Jr. and the Honorable 
  John Conyers (April 8, 2005)...................................   106
Letter from Morna A. Murray, Co-chair, National Juvenile Justice 
  and Delinquency Prevention Coalition to the Honorable F. James 
  Sensenbrenner, Jr. and the Honorable John Conyers (April 8, 
  2005)..........................................................   109
``Caught in the Crossfire: Arresting Gang Violence By Investing 
  in Kids,'' a report submitted by Fight Crime: Invest in Kids...   110
Jason Ziedenberg, ``What works to deter gangs?'' The Detroit Free 
  Press, April 12, 2005..........................................   141
``DOJ Youth Violence and Youth Gang Prevention Best Practices 
  Protocols By Age''.............................................   143
QuickTime presentation, ``Adolescent Brain Development''.........   147
``Estimates of Prison Impact of H.R. 1279, '' submitted by the 
  United States Sentencing Commission............................   153
``Childhood On Trial: The Failure of Trying & Sentencing Youth in 
  Adult Criminal Court,'' a report submitted by Coalition for 
  Juvenile Justice...............................................   156
Letter from David G. Wilson, Executive Director, Association of 
  Former Federal Narcotics Agents to the Honorable F. James 
  Sensenbrenner, Jr. (July 23, 2005).............................   255
Nancy Bartley, ``Lawmakers rethinking hard line on sentencing of 
  young offenders,'' The Seattle Times, April 14, 2005...........   256



















    H.R. 1279, GANG DETERRENCE AND COMMUNITY PROTECTION ACT OF 2005

                              ----------                              


                         TUESDAY, APRIL 5, 2005

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2 p.m., in 
Room 2141, Rayburn House Office Building, Hon. J. Randy Forbes 
presiding.
    Mr. Forbes. I would like to call this meeting of the 
Subcommittee to order, and let me first of all say good 
afternoon to everyone who's here. I want to welcome you to this 
important hearing to examine the issue of the problem of gang 
violence in America.
    The bill we are considering today sends a clear message to 
gangs, which is basically this: It stops now. Gone are the days 
of the Sharks and the Jets from the ``West Side Story.'' No 
longer are fists and jeers the weapon of choice. Now, drive-by 
shootings with semi-automatics, brutal group beatings, and 
machete attacks are the standard.
    No longer are gangs loosely-knit groups of wayward teens. 
Today's criminal gangs are highly organized, highly structured 
bodies whose ages range anywhere from elementary school to 
middle-age. They are trained in military techniques and their 
primary purpose is to commit illegal violent criminal 
activities in furtherance of their gang organization. They are 
in our schools, on our streets, and in our communities.
    The problem of gangs is not a new one, but today it's a 
different one and a bigger one and one that is growing more 
rapidly and more uncontrollably than ever before. According to 
the U.S. Department of Justice, there are currently over 25,000 
gangs that are active in more than 3,000 jurisdictions across 
the United States. Today, the FBI and the U.S. Justice 
Department estimate that there are somewhere between 750,000 
and 850,000 gang members in our nation.
    Let me put this in perspective for you. Today, in our Army 
and Navy combined, there are 859,000 active duty members. This 
is virtually a one-on-one ratio to gang members in the United 
States. You can even add the Air Force and the Marine Corps to 
that figure and we would not reach a two-to-one ratio of 
military personnel to criminal gang members. In fact, if the 
criminal gang members in the United States were a military 
force located in another country, they would comprise the 
sixth-largest military in the world in terms of soldiers.
    Gangs have declared war on our nation. They are ravaging 
our communities like cancer, urban, rural, rich, and poor, and 
they are metastisizing from one community to the next as they 
grow.
    There is no overriding societal value to being a member of 
a criminal gang, and if you are part of a criminal gang, this 
bill says two things. First, this bill puts the full force of 
our nation's Federal, State, and local law enforcement officers 
and prosecutors behind apprehending criminal gang members. If 
you ask our nation's law enforcement officers what they need to 
combat gangs, they will tell you this: our Federal law 
enforcement officers have the resources, but not the 
intelligence system to combat the gang problem, and our local 
law enforcement officers have the intelligence network, but not 
the resources to combat the problem. This bill will marry the 
two and authorize the funding to make this partnership 
successful.
    Second, this bill says that if you are a member of a 
criminal gang and you commit a violent gang crime, you are 
going to jail for a minimum of 10 years, period. While some may 
criticize mandatory minimum penalties as unduly harsh, such 
penalties are invaluable tools to use against gangs to secure 
cooperation from gang members and infiltrate tightly-knit 
organized crime syndicates operating as sophisticated street 
gangs.
    Moreover, in light of the Supreme Court's recent decision 
in Booker and Fanfan, rendering the guidelines as only 
advisory, mandatory minimums are the only effective means to 
ensure that fair and consistent sentences are imposed, and we 
will see more of them unless something is done to reimpose a 
mandatory guideline system.
    This bill will create new criminal gang prosecution 
offenses, enhance existing violent crime penalties to deter and 
punish criminal gangs, and enact violent crime reforms needed 
to effectively prosecute gang members. This is a tough bill. 
Make no mistake about it, we recognize there are those who want 
it softer. But criminal gangs in America are not soft, and the 
crimes they commit are real, and they are hard. Only a tough 
bill will stop these gangs and protect innocent victims from 
the hard pain of these vicious crimes.
    We are saying that the following is not acceptable in 
America: gangs that fuel their activity with narcotics 
trafficking, carjacking, and illegal gun trafficking; gangs 
that engage in human trafficking, rape, and prostitution; gangs 
that use firearms and other deadly weapons in the commission of 
crimes; and gangs that brutally rape, kill, and maim.
    This bill, when enacted, will bring a new force to bear on 
gang activity in our country. It will provide increased Federal 
effort to assist local law enforcement in targeting and 
federally prosecuting violent criminals who are associated with 
criminal gangs. The bill will encourage partnerships across all 
levels of government and ensure the success of these 
partnerships through the expansion of resources and 
intelligence.
    I want to take a moment to recognize Congressman Frank 
Wolf, who has been a leader in Congress in the war against 
gangs and gang violence. We owe him a great debt of gratitude 
for his commitment to raising awareness of this problem and 
laying out solutions.
    I also want to thank Chairman Coble for agreeing to hold 
this hearing and offer my sincerest condolences to him and his 
family on the passing of his mother.
    Finally, I want to recognize those on the front lines of 
the gang wars, our law enforcement officers who are out there 
day in and day out. They are the foot soldiers of this battle, 
and to them we are very grateful.
    I am anxious to hear from our distinguished panel of 
witnesses and now yield to the Ranking minority Member of this 
Subcommittee, the gentleman from Virginia, Mr. Bobby Scott.
    Mr. Scott. Thank you, Mr. Chairman. I'm pleased to join you 
in convening the hearing on H.R. 1279, the ``Gang Deterrence 
and Community Protection Act of 2005.'' I also join you in 
expressing our heartfelt sympathy for our Chairman and friend, 
Chairman Howard Coble, and his family in their hour of 
bereavement.
    Now, I just want to start off by saying, Mr. Chairman, that 
we are going to work together against base closings, funding 
aircraft carriers, NASA research, and other programs, but we 
must part company on this bill due to my concern that we not 
waste money and increase crime.
    This bill is chock-full of new mandatory minimum sentences, 
ranging from a mandatory minimum of 10 years to mandatory life 
or death and other provisions, which have been solidly proven 
to be counterproductive in the fight against crime. They are 
not criticized because they are harsh. They are criticized 
because they are counterproductive. We have known that 
mandatory minimum sentences disrupt order and proportionality 
in sentencing. They discriminate against minorities and waste 
taxpayers' money, compared to sentencing schemes where the 
court can look at the seriousness of the crime and the 
offender's role in the crime and background.
    The Judicial Conference of the United States, which sees 
the impact of mandatory minimum sentences on individual cases, 
as well as the criminal justice system as a whole, has told us 
time and time again that mandatory minimum sentences create 
more harm than good from any kind of rational evaluation. In 
its recent letter to Members of the Subcommittee on Crime 
regarding this bill, the Conference noted that mandatory 
minimum sentences create, quote, ``the opposite of their 
intended effect.'' Continuing to quote, ``Far from fostering 
certainty in punishment, mandatory minimums result in 
unwarranted sentencing disparities. They treat dissimilar 
offenders in a similar manner although those offenders can be 
quite different with respect to the seriousness of their 
conduct or their danger to society.'' And they finally say that 
``they require the sentencing court to impose the same sentence 
on offenders when sound policy and common sense call for 
reasonable differences in punishment.''
    Both the Federal Judicial Center in its report entitled, 
``The General Effects of Mandatory Minimum Prison Terms: A 
Longitudinal Study of Federal Sentences Imposed,'' and the 
United States Sentencing Commission in its study entitled, 
``Mandatory Minimum Penalties in the Federal Criminal Justice 
System,'' found that minorities were substantially more likely 
than whites under comparable circumstances to receive mandatory 
minimum sentences. A Rand Corporation study entitled, 
``Mandatory Drug Sentences: Throwing Away the Key or the 
Taxpayers' Money?'' showed that mandatory minimum sentences are 
far less effective than either discretionary sentences or drug 
treatment in reducing drug-related crime and, thus, far 
costlier than either.
    Just how costly this bill will be is yet to be seen, but, 
in response to an inquiry by my office, the U.S. Sentencing 
Commission estimated that the prison impact of H.R. 1279 would 
require an additional 23,600 prison beds over the next 10 
years. At $75,000 a cell, that amounts to prison construction 
costs of almost $2 billion, in addition to annual upkeep of 
about $750 million based on $30,000 per inmate per year. That 
is over and above what we are already scheduled to spend on 
prison construction and prison inkeep in a country where the 
prison population per person is higher than anywhere else in 
the world. For proven juvenile crime prevention and 
intervention programs, we are spending about half, about $400 
million, of the annual inmate upkeep this bill will cost.
    The worst problem with this bill is it provides for far 
more juveniles being tried as adults. For years now, every 
study of juveniles tried as adults has shown that juveniles 
commit more crimes, more violent crimes in particular, when 
they are released, if they are treated as adults. This is easy 
to understand when you consider that juveniles who go to prison 
will have as their role models hard-core murderers, rapists, 
and robbers, whereas in the juvenile detention system they will 
receive education and training, counseling, drug treatment, and 
other assistance.
    On March 14 of this year, coincidentally the same day that 
H.R. 1279 was introduced, the Coalition for Juvenile Justice 
released its study, ``Childhood on Trial: The Failure of Trying 
and Sentencing Youth in Adult Criminal Court,'' showing that 
even more definitively that trying--showed even more 
definitively that trying juveniles as adults increased rather 
than decreased the prospects that they would reoffend when 
released and that with more serious offenses, as compared with 
the youth tried in juvenile court. The study revealed that over 
250,000 youth are charged as adults every year. Just as with 
the application of mandatory minimums, the application of adult 
court to juveniles falls heaviest amongst minorities, about 82 
percent of youths tried as adults are youth of color.
    For years, we have known that a continuum of services 
geared toward the needs of at-risk youths prevents crime from 
occurring in the first place. Many such proven crime prevention 
programs have saved more money than they cost. Head Start and 
other quality early childhood education programs, Boys and 
Girls Clubs, and after-school recreational programs, Job Corps 
and other intensive job training programs, all prevent crime 
and save more money than they cost.
    At a meeting I had with students at Monument High School in 
South Boston, Massachusetts, last month, I told them about this 
upcoming hearing and asked them what was needed to prevent gang 
crime. They said kids join gangs for reputation, protection, to 
feel wanted, to have friends, and to get money, and what is 
needed to prevent them from joining gangs was ample recreation 
for boys as well as girls, jobs and internships for training 
and money, and assistance to allow their families to live in a 
decent home.
    Interestingly, I asked the same question to a group of law 
enforcement officials I met in my district yesterday, and they 
had very similar advice. Neither group said anything about the 
need for more mandatory minimums or trying more juveniles as 
adults.
    So we know what works to prevent crime. Unfortunately, we 
also know how to play politics. H.R. 1279 has been nicknamed 
``Gangbusters.'' It reflects the politics of crimes where you 
come up with a good slogan and try to codify it. It doesn't 
matter whether it does anything to reduce crime or is 
counterproductive, but, if it sounds good, it must work.
    We have had the greatest success by putting aside the 
politics of crime in favor of sound policy in the area of 
juvenile justice, until this bill. Three years ago, we passed a 
bipartisan juvenile crime prevention and bipartisan juvenile 
early intervention bill. These bills were based on the advice 
of judges, administrators, researchers, advocates, and law 
enforcement officials, representing the entire political 
spectrum. They all said the same thing, that the best way to 
reduce and prevent juvenile crime and ultimately adult crime is 
through prevention and early intervention programs geared at 
at-risk youth. None of them said that we need more mandatory 
minimum sentences nor that we need to treat more juveniles as 
adults.
    Both bills passed virtually unanimously in both the House 
and the Senate, and yet the funding in these bills has been cut 
in half since they passed, including the gang resistance 
funding, and now we wonder why we have increases in gang 
violence after we've cut all the funds to prevent it. We must 
get back to the bipartisan, evidence-based, universally agreed-
upon approach to preventing juvenile crime and gang violence 
and abandon the sound bite-based, politically-charged 
approaches which cost billions of dollars and actually 
increased crime and violence.
    Thank you, Mr. Chairman.
    Mr. Forbes. Thank you, Congressman Scott.
    Now, I would like to recognize Mr. Conyers of Michigan for 
an opening statement.
    Mr. Conyers. Thank you, Mr. Chairman. I appreciate this 
opportunity and note that this is your bill that we're hearing 
here today, right?
    Mr. Forbes. Yes, sir, Mr. Chairman.
    Mr. Conyers. Yes, sir. Thank you, sir.
    Well, obviously, there are two schools of thought in 
criminal justice. One is that mandatory minimums have not been 
discredited and the other is that mandatory minimums 
sentencing, where they have been studied extensively, have been 
proven to be ineffective in preventing crime, proven to distort 
the sentencing process and proven to be a considerable waste of 
taxpayers' money.
    And so I'm asking at least three of the witnesses who may 
feel inclined to respond to this part of my observation, 
something's gone wrong in America. What we do is incarcerate 
more people for longer periods of time than anybody else in the 
world, 14 times that of Japan, eight times the rate of France, 
six times the rate of Canada. $40 billion to go into imprisoned 
offenders who could be at Yale University, where I'm going to 
be Friday, at less cost and I'm sure a greater benefit to them.
    So in a way, the die has been cast. Those who still believe 
in locking them up and throwing away the key in the face of any 
evidence to the contrary are going to advocate the ideas that 
are found in the measure that is being examined before us 
today. The costs keep going through the roof, and I'm struck by 
the fact that now, in our State and Federal prisons, a tenth of 
all of those incarcerated are serving life terms. In New York 
and California, it's really almost 20 percent of those 
incarcerated are serving life terms.
    It seems to me that we're neglecting what the gentleman 
from Virginia, Mr. Scott, has pleaded in his opening statement. 
What about prevention? Is prevention so minimized that it 
doesn't require us to give it any consideration here and that 
we come up with a bill that is hugely distorted one way?
    We lost, and tomorrow he will be memorialized, the late 
Johnny Cochran, perhaps the most widely known trial lawyer in 
this country at this moment. The interesting thing about Johnny 
Cochran is that he was once a prosecuting attorney. In L.A. he 
had the job of prosecution. He later became a defense attorney. 
I had the privilege of having him before this Committee many 
times.
    So we'll be comparing your comments--and I urge that you 
stretch for reasonableness and thoroughness. Is there something 
about advocating mandatory minimums that would lead you not to 
want to do that? I hope that you will.
    I thank you, Mr. Chairman, and return the time.
    Mr. Forbes. Thank you, Mr. Conyers.
    Before I swear in the witnesses, I'd like to also introduce 
a Member of the full Committee but not a Member of the 
Subcommittee, Mr. Adam Schiff, who has done a lot of work in 
the gang area both before he got to Congress and also here, and 
we are glad to have him with us this afternoon.
    Mr. Conyers. Mr. Chairman, might I inquire, Mr. Schiff is a 
former U.S. Attorney, and I would ask for your consideration of 
unanimous consent that he be permitted to make a few brief 
remarks.
    Mr. Forbes. Mr. Conyers, I'd love to do that, except as you 
know, I'm a substitute Chairman. I'm not the full Chairman. And 
the rules that I was given under which Mr. Schiff was allowed 
to sit here was that he could be a part of the Subcommittee, 
but that the rules of the Committee were that if you're not a 
Member of the Subcommittee, you cannot address questions. They 
have to come through the Members. And I'd love to do it, but 
they're not the marching orders that I've been given, so Adam, 
I'm sure you'll be able to say whatever you want at the full 
Committee meeting when we go at that particular point in time.
    So it's the practice of the Subcommittee to swear in all 
witnesses appearing before it, and I'd, at this time, ask the 
witnesses if you would please stand and raise your right hand.
    Do each of you solemnly swear that the testimony you are 
about to give this Subcommittee shall be the truth, the whole 
truth, and nothing but the truth, so help you, God?
    Mr. Fitzgerald. I do.
    Mr. Logli. I do.
    Ms. Guess. I do.
    Mr. Shepherd. I do.
    Mr. Forbes. Let the record show that each of the witnesses 
answered in the affirmative, and please be seated.
    We have with us today four distinguished witnesses. Our 
first witness is Patrick J. Fitzgerald, United States Attorney 
for the Northern District of Illinois. As U.S. Attorney, Mr. 
Fitzgerald serves as the District's top Federal law enforcement 
official. He manages a staff of approximately 300 people, 
including 149 Assistant U.S. Attorneys who handle civil 
litigation, criminal investigations, prosecutions involving 
public corruption, white collar fraud, narcotics trafficking, 
violent crime, money laundering, and other matters. Prior to 
this position, Mr. Fitzgerald served as an Assistant U.S. 
Attorney in the United States Attorney's Office for the 
Southern District of New York, where he participated in the 
prosecution of United States v. Osama bin Laden and others. He 
is also a recipient of the Attorney General's Award for 
Distinguished Service in 2002. Mr. Fitzgerald is a graduate of 
Amherst College and Harvard Law School.
    Our second witness is Paul A. Logli, President Elect of the 
National District Attorneys Association. Mr. Logli is currently 
serving as an elected State Attorney in Winnebago County, 
Illinois, where he also serves as Vice President of the 
Winnebago County Bar Association. Previously, he served as an 
Associate Judge for the 17th Judicial Circuit in Illinois. 
Additionally, he is a faculty member of the National College of 
District Attorneys and Northwestern University's Center for 
Public Safety. Mr. Logli previously served as a member of the 
Governor's Commission on Gangs in Illinois. He is a graduate of 
Loras College and the University of Illinois College of Law.
    Our third witness is Michelle Guess. Ms. Guess is the 
mother of nine children and lives in Maryland. Three years ago, 
she moved with her late husband to Maryland from Philadelphia 
in order to escape the crime and gang-infested neighborhood of 
Philadelphia in which they lived. Ms. Guess and her family 
suffered firsthand a horrible tragedy when her husband was 
murdered by a gang member in Maryland. Ms. Guess works now as a 
single mom supporting her nine children in the home restoration 
business. She is also an advocate for law enforcement and 
community efforts to eliminate gangs and the threats they pose 
to our children and communities.
    Our final witness is Mr. Robert E. Shepherd, Jr., Professor 
Emeritus of Law at the University of Richmond. For his 
introduction, I turn to the distinguished gentleman from 
Virginia, Mr. Scott, to make a few remarks. Bobby?
    Mr. Scott. Thank you, Mr. Chairman. I appreciate you giving 
me the opportunity to introduce Professor Shepherd. I've known 
him a long time and we've worked on a number of issues going 
back to my days in the Virginia General Assembly.
    Professor Shepherd received his B.A. and L.L.B. at 
Washington and Lee University. He served in the JAG Corps from 
1962 to 1964 and was in private practice of law in Richmond 
from 1964 to 1971. He was an Assistant Attorney General from 
1971 to 1975, an Associate Professor of Law and Director of the 
Juvenile Court Clinic at the University of Richmond from 1975 
to 1978, and a full professor from 1978 to 2001, directing the 
Youth Advocacy Clinic from 1978 to 1990. He is presently 
Emeritus Professor of Law at the University of Richmond.
    He has served in leadership positions in juvenile justice 
issues with the Virginia Bar Association, the American Bar 
Association, the National Center for Juvenile Justice, the 
Virginia Commission on Youth, and the Federal Advisory 
Committee on Juvenile Justice. Let me just--he's received all 
kinds of awards. We'd be here all day if I were to list them 
all, but let me just say that he is the number one recognized 
leader in juvenile justice policy in the Commonwealth of 
Virginia, and we are welcomed and honored to have him here 
today.
    Mr. Forbes. Thank you, Mr. Scott, and I thank all the 
witnesses for being here.
    I also want to recognize two Members that have joined us, 
Representative Lungren from California and Representative 
Feeney from Florida and we are glad to have them with us.
    And now, I'd like to recognize Mr. Fitzgerald for 5 
minutes. And, as you know, based on the little indicators in 
front of you, you'll get a warning light when you've got about 
a minute left, and then the red light goes on. If you could try 
to wrap it up after that time, as close as you can, we'd 
appreciate it.
    Mr. Fitzgerald, thank you for being here.

  TESTIMONY OF PATRICK J. FITZGERALD, UNITED STATES ATTORNEY, 
   NORTHERN DISTRICT OF ILLINOIS, U.S. DEPARTMENT OF JUSTICE

    Mr. Fitzgerald. Thank you, Congressman Forbes, Ranking 
Member Scott, the Members of the Subcommittee and the 
Committee.
    To give you a sense of the scope of the gang problem in 
Chicago, it's estimated that there are approximately 70,000 to 
100,000 gang members in Chicago. That compares with a police 
force of roughly 13,000 police officers. So a multiple size of 
the Chicago Police Department would give you an approximation 
of the size of the gang problem in Chicago.
    Two examples bring it home to me. In 1995, a list was 
seized by the FBI from a Gangster Disciples. The list was a 
list of the number of workers who sold drugs in Chicago. The 
Gangster Disciples were highly organized. They had a board of 
directors for inside prison, a board of directors for outside 
prison. Under the directors, they had governors. Under the 
governors, they had regents, and the lowest level was soldiers. 
This list of people selling drugs was 39 pages long and had 
7,700 members on it. So this Gangster Disciples drug 
organization was larger than half the size of the Chicago 
Police Department.
    The other thing to bear in mind about gangs, another 
example is the Black Disciples, who we recently arrested in 
2004. They took over a housing project, and I mean that very 
literally. They put up a fence, an iron fence around the 
project. They put barriers to block people from entering. They 
frisked everyone who came into the building to make sure that 
they weren't wearing bulletproof vests and therefore might be 
police. They put snipers on the roof. The snipers on the roof 
had night vision goggles and had police scanners. And 
basically, they took over a building.
    At one point, we obtained probable cause to obtain search 
warrants for 47 of 134 apartments in that public building. That 
meant that more than one-third of that building could be 
searched because there was reason to believe that there were 
drugs or drug proceeds there. When we think about that 
building, we think not of the third of the apartments that were 
occupied by people dealing drugs, but the two-thirds of the 
apartments where the people lived there were basically 
imprisoned--a fence around their building, snipers on the roof, 
night vision goggles, and being frisked if they wanted to go 
into their home.
    The Black Disciples also took over a Christian radio 
station and pirated it so that someone listening to the radio 
station driving through the neighborhood would hear gang 
messages broadcast over the radio as to law enforcement 
activity.
    When we arrested the Gangster Disciples last year, we 
arrested 47 members, the highest ranks in the Black Disciples, 
and followed 2 weeks later, by the arrest of the Mafia Insane 
Vice Lords, who operated 47 separate open air drug markets in 
Chicago. At the same time we charged the 48 Federal defendants 
in the Mafia Insane Vice Lords, 57 defendants were charged with 
the State. I think that gives you a sense of what we are 
talking about when you think about gangs that almost rival the 
size of a police department and effectively take occupied 
territory, which is federally-funded public housing projects in 
Chicago, and make them off limits and effectively jail the 
people who are not committing crimes.
    Let me tell you about the Chicago approach. The first 
approach has been to focus on Project Safe Neighborhoods, which 
my colleague, Paul Logli, will talk some about, which is to 
jointly have ATF, CPD, and the State's Attorney's Offices work 
on guns. We next take gang strategy teams, which use the local 
police departments, which have the best intelligence as to 
where the gang problems are, to tell us where the most violent 
and dangerous offenders are in the areas and form a joint 
Federal-local strategy to attack those targets.
    In the four most crime-ridden areas in Chicago, there are 
monthly meetings involving Federal, State, and local officials, 
and from that, a ``Top 20'' list is formed in Chicago where we 
sit down with the Chicago Police Department, the Federal law 
enforcement agencies, and make sure we go after the 20 most 
dangerous and most violent gangs in Chicago, and already in 1 
year, we have arrested and detained ten of the top 20 targets.
    There is also another aspect of it which involves marketing 
deterrence. We, too, believe we would rather have people not 
commit crimes than incarcerate them, and one of the things we 
do is send letters from Project Safe Neighborhoods to each 
felon who is released in the State of Illinois. Every single 
one receives a personalized letter that lets them know that the 
Federal Government is watching, that they face heavy penalties 
should they pick up a gun.
    Secondly, we conduct parolee forums in the four most 
dangerous areas inside Chicago. Thirty parolees at a time are 
brought to a forum. They're randomly selected. They have no 
choice but to go. And they face a carrot and stick approach. 
They meet people from the U.S. Attorney's Office, from the 
State's Attorney's Office, from the Federal law enforcement and 
local police agencies who let them know the heavy penalties 
they are facing if they mess up and carry a gun and commit a 
crime. At the same time, in the same meeting, they meet people 
who offer detox counseling, job training, employment, 
education. At the end, they're told, you have a choice. You can 
meet with the law enforcement again and go to jail for a long 
time, or we can try something different.
    And we found some remarkable results to date in two of the 
districts where the recidivism rate was 23 percent with people 
who didn't attend the forums. It's 4 percent for those who do. 
For gun offenses, it goes from 3 percent to 1 percent. In two 
other districts, the numbers are even better.
    In addition to that, we're focusing on juvenile education 
in the hot zones, where each of the children going to junior 
high school are put through an 8-week program to educate them 
about the dangers of drugs, and with that, I'll just end by 
noting that the homicide rate in Chicago has paid dividends. It 
was 666 in 2001. Just a few years later, 2003, it was under 
599, which was the first time it went under 600 since I was 7 
years old. And a year later, the homicide rate dropped--I'm 
sorry?
    Mr. Scott. What are those numbers?
    Mr. Fitzgerald. In 2001, there were 666 homicides. In 2003, 
there were 599, which was the first time in 36 years it went 
under 600. And last year, in 2004, it went past 500 all the way 
down to 448, which was a 25 percent drop in a single year. So 
it's gone from 666 to 448 in 3 years.
    And with that, I would simply say that it's not a problem 
that's limited to Chicago. Gangs are a problem that affect 
various regions of the country, and we seek to work together to 
do our best to take down the rate of violence as a result of 
gangs. Thank you.
    Mr. Forbes. Thank you, Mr. Fitzgerald.
    [The prepared statement of Mr. Fitzgerald follows:]
              Prepared Statement of Patrick J. Fitzgerald
    Chairman Coble, Ranking Member Scott, and Members of the 
Subcommittee, I am Patrick Fitzgerald, the United States Attorney for 
the Northern District of Illinois. It is an honor to appear before you 
today to discuss the terrible problem of gangs that grips the nation's 
third largest city, Chicago, as well as other areas in our nation, and 
to discuss how the Department of Justice is partnering with other law 
enforcement and the community to address this problem.
                       the nature of the problem
    It is easy to underestimate the grip that gangs have on some or our 
cities. But the sad reality is that their grip on urban life is lethal. 
First, the sheer number of gang members is staggering. In Chicago 
alone, there are estimated to be 70,000 to 100,000 gang members--
compared with about 13,000 Chicago police officers. Several ``super 
gangs'' dominate: the Gangster Disciples, the Black Disciples, the Vice 
Lords, the Black P Stones, the Mickey Cobras, the Latin Kings, the 
Spanish Cobras, the Maniac Latin Disciples, and the Satan Disciples. 
Each of these gangs controls large amounts of territory, engages in 
large-scale drug trafficking, and uses gun violence to control its 
territory and drug trade.
    One may get a rough sense of the magnitude of the gang problem by 
looking at the Gangster Disciples (GD's). The GD's have been the target 
of a series of cases brought by the United States Attorney's Office in 
Chicago beginning in the mid-1990's and continuing to today. Over two 
hundred high ranking members, including its chairman, have been 
convicted, with many receiving life sentences. The undisputed leader of 
the gang was Larry Hoover, who is serving a life sentence after a 
federal conviction.
    Under Hoover, the GD's had a very sophisticated structure and 
hierarchy. There were two Boards of Directors: one for gang members in 
prison and one for those outside. (The existence of a separate board in 
prison speaks powerfully both to the control that gangs can exert even 
within a prison and to the fact that gang members anticipate 
incarceration, but are not deterred by it.) Serving under the out-of-
prison Board of Directors were 14 ``governors.'' Each governor had a 
geographic area assigned to him, and in turn, between 5 to 16 
``regents'' who were assigned a smaller geographic area within his 
governor's area. Then, under the regents were ``coordinators,'' who 
controlled even smaller geographic areas within a regent's area; and 
finally, the ``soldiers.'' Other ranks included the Chief of Security, 
who was responsible for obtaining firearms for the soldiers and making 
sure that armed soldiers guarded each drug selling location, to protect 
against both rival gangs and the police.
    This sophisticated hierarchy was used to sell drugs and control 
drug trafficking. Each soldier participated in the sale of illegal 
drugs and was required to pay a portion of his profits to the gang's 
leadership. In return, the gang provided its members with a source for 
illegal drugs; assured the members of a monopoly in drug sales in GD-
controlled territory; provided bail, attorney fees, and commissary 
money for arrested or jailed members; and used gang discipline to 
prevent arrested members from cooperating with law enforcement. Under 
the gang's rules, cooperation with law enforcement was punishable by 
death.
    In 1995, FBI agents recovered in a search a computer-generated 
organizational chart for the GD's. The chart went on for 39 pages. It 
listed all governors and regents by street name and the number of 
soldiers who were ``on count'' to each regent and therefore reporting 
to the gang's hierarchy. Each of the governors and many of the regents 
have been convicted. There were over 7,700 soldiers. Thus, the GD's 
alone were half as big as the Chicago Police Department.
    The GDs also had a political action committee which contributed to 
favored political candidates and, on occasion, sponsored its own 
political candidates--they achieved genuine political access and 
influence.
    There should be no mistake that gangs are violent. It is 
conservatively estimated that 60% of the 448 homicides in Chicago in 
2004 were gang-related. In any given year, gangs in Chicago are 
responsible for far more murders than traditional organized crime in 
Chicago (known as the ``Outfit'') has committed over the course of 
decades. And if raw violence is not enough, the gang problem poses 
unique threats of corruption. The gangs that control drug trafficking 
in Chicago have at times corrupted police and other law enforcement--
some members actually have become police officers and corrections 
officers. Those gang members who corrupt law enforcement undo the hard 
and honest work of the overwhelming majority of law enforcement 
officers.
    Perhaps a better way to measure the harm gangs cause is to 
appreciate what one gang did to a housing project in Chicago--and 
people who tried to live there. The Black Disciples (BD's) a violent, 
well-organized street gang, controlled buildings at certain public 
housing projects. They actually put an iron fence around the buildings, 
barricading the rear alley entrance, posted snipers on the roof, and 
used police scanners and night-vision goggles to monitor police 
activity. Persons entering the building were searched to make sure that 
they were not law enforcement. Drug sellers wore ski-masks to prevent 
being identified by undercover officers. At one point, law enforcement 
obtained probable cause to search 47 of 134 occupied apartments in the 
project building, and many other apartments were searched with the 
consent of the tenants and housing authority. I recall being struck 
that at the very time that American military forces fought valiantly to 
establish a presence in Tora Bora, Afghanistan, a public housing 
project in the city of Chicago was largely off limits because it was 
occupied by a gang. The non-gang members were effectively jailed by the 
gang.
    A near fatal example of the lengths the BDs went to protect their 
drug selling occurred in May 2001. An undercover Chicago Police Officer 
approached a public housing building controlled by the BDs for drug 
selling purposes. A BD member protecting the drug operation began to 
search the officer and felt his safety vest. The BD pulled a gun, 
fought with the officer, then shot the officer twice in the back. 
Miraculously, one of the bullets lodged in the officer's vest, but the 
other shot hit him, resulting in extensive medical treatment.
    The BD gang even operated a pirate radio station to broadcast 
information relating to gang activities--using a frequency belonging to 
a Christian radio station. One defendant paid Donnell Jehan, one of the 
BD ``kings'' and a federal fugitive, $80,000 per month for the heroin 
franchise at one of the public housing buildings.
           what law enforcement is doing: the chicago example
    The Chicago story is not one without hope. Law enforcement in 
Chicago--federal, state, and local--recognized the severity of the 
problem and has fought back. We are making strides, though there is 
much more to do.
                 project safe neighborhoods in chicago
    The first step was to focus on guns as part of Project Safe 
Neighborhoods (PSN), a national enforcement program, discussed further 
below, whose greatest strength is that it is adapted to the needs of 
each individual district. Through PSN in Chicago, we have substantially 
increased federal prosecution of convicted felons caught carrying a gun 
and have placed a special emphasis on areas of high violence and on 
offenders who are gang members. There is an unprecedented partnership 
between the Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), 
the Chicago Police Department (CPD), the U.S. Attorney's Office, the 
Cook County State's Attorney's Office, the Illinois Department of 
Corrections, and local grass roots organizations serving their 
communities. Whenever a convicted felon with a gun is arrested by 
Chicago police in targeted police districts, state and federal 
prosecutors and ATF agents sit down together and decide in which court 
to prosecute cases. We tap every federal and local law enforcement 
agency that has relevant knowledge in order to coordinate our attacks 
on the gangs to which the offenders belong.
    The second step was to organize ourselves to address the gang 
problem. In my own office, we reorganized to recognize the reality that 
gangs are the drug distribution network for the Chicago area. The 
Narcotics and Gang section is split in half between prosecutors 
investigating national and international narcotics rings and those 
prosecuting the gangs dealing drugs in the Chicago area. We have found 
that the wiretaps on the gangs have led to wiretaps on members of 
Mexican cartels who use the gangs to distribute their drugs, and that 
the wiretaps on international drug traffickers regularly lead to their 
street gangs who control the wholesale and resale distribution of their 
drugs in the region. Similarly, ATF, FBI, and DEA have dedicated squads 
to combat gangs and the Chicago Police Department has formed a gang 
intelligence section. ATF alone has dedicated two full-time groups that 
focus exclusively on long term investigations of gangs in Chicago. 
Working side-by-side with the Chicago Police Department officers 
assigned to these groups, they utilize a variety of investigative 
techniques to pursue RICO and complex conspiracy cases.
                          gang strategy teams
    A third step was the formation of neighborhood-based Gang Strategy 
Teams made up of all the law enforcement units--state and federal--that 
investigate and prosecute gangs. Their mandate is to share more gang 
intelligence on a regular basis, make greater use of technology, and 
make coordinated, strategic decisions about how and where to use our 
limited resources. Law enforcement partners who might otherwise be 
tempted to compete instead put some of their crown jewels--key 
informants--on the table to share in this battle.
    Once a month, gang experts from CPD and each of the federal 
agencies meet at the headquarters of the four gang-plagued police 
regions (called ``Areas'') in Chicago to build a consensus about the 
top gang targets in each Area, based on shared, filtered intelligence, 
and to strategize about how to attack these targets (including what 
resources are available to do so). Each Area has a separate Gang 
Strategy Team. Since one of the primary goals of the Teams is to 
establish trust and relationships so that the maximum amount of 
intelligence is shared, each agency typically has the same participants 
come to each monthly meeting for a particular Area. Our office has 
assigned two Assistant United States Attorneys in the Gang Unit to each 
Area, and we work closely with the Cook County State's Attorney's 
office. There is also an analyst from HIDTA (High Intensity Drug 
Trafficking Area) assigned to each Team. The analysts work with CPD 
analysts to map the gang territories, to do research on the top gang 
targets, and to look for connections to other gang investigations.
    The Gang Strategy Team's consensus on top gang targets usually 
takes the form of a ``Top 10 Gang Target'' list, showing the worst gang 
leaders in the Area, along with a determination as to the top 3 
organizational gang threats in the Area. If individuals on the Top-10 
list or gangs in the top 3 threat list are not being investigated by 
anyone, the Team discusses which of the agencies at the table can begin 
investigating the target. An investigation usually begins with CPD 
dedicating a team to gather additional intelligence. The Team discusses 
whether the target can be taken down by a simple investigation (e.g., 
an ATF or CPD confidential informant can buy guns or drugs from the 
target, who would qualify for a mandatory minimum sentence under 
federal drug or firearms laws), or whether a more sophisticated 
investigation is required (e.g., the organization is sophisticated and 
a wiretap is probably necessary). The top targets from the Gang 
Strategy Teams serve as a type of ``minor league'' for the citywide 
``Top Twenty Gang Target,'' discussed next.
                          the top twenty list
    A fourth step was the creation roughly one year ago of a ``Top 
Twenty'' list of violent gang offenders. In January 2004, the U.S. 
Attorney's Office, FBI-Chicago, DEA-Chicago, ATF-Chicago, IRS-Chicago, 
the Cook County State's Attorney's Office, and CPD formed a ``Top 20 
Gang Target'' list for Chicago. The list was based on a consensus from 
the Gang Strategy Teams and the various agencies as to the worst gang 
leaders in Chicago. The group meets once a month to discuss the 
investigations against the top 20 targets. Each of the federal agencies 
takes turns taking responsibility for the federal part of a joint 
investigation into each target. At times, there are cases in state 
court that can be adopted and proved in federal court which will 
incapacitate that gang member for a long stretch of incarceration. 
Other times we must start from scratch and develop a case based upon 
informants, undercover officers, and wiretaps.
    The Top Twenty Gang Target list and the regular meetings around it 
have proven very helpful in several respects. They help to focus 
everyone's efforts on the worst gang leaders. They add urgency and 
purpose to investigations because of the acknowledged importance of the 
targets and the attention paid to the investigations. And they foster 
an atmosphere of cooperation and partnership among all the agencies 
that work on attacking gangs--an invaluable resource when problems or 
disputes arise in gang-related investigations. Since the list started a 
little more than one year ago, 10 of the top targets have been charged 
federally and detained (including the heads of the Black Disciples and 
the Mafia Insane Vice Lords, two investigations discussed below). The 
tenth was detained last week. They are then removed from the list. When 
a target is removed, the group votes on a replacement based on shared 
intelligence as to the top gang leaders.
                          marketing deterrence
    An equally important part of our strategy for ending the violence 
caused by street gangs is to focus directly on our ultimate goal, which 
is not merely sending people to jail but deterring young men from 
joining gangs and carrying guns. For many gang members, their 
affiliation draws attention that passes for respect on the street. We 
are letting them know that being in a gang will get attention in the 
police station and the federal courthouse and, then, far less attention 
in a federal prison in a state far away from their gang. If the word 
spreads that we are targeting gang members on parole who carry guns in 
the neighborhoods where people fear going out at night, we can make a 
difference in the futures of these neighborhoods.
    To that end, the Illinois Department of Corrections mails 
personalized letters to every parolee in the state upon their release 
from prison, advising them that they are being watched, and if arrested 
with a gun that they face strict federal sentences. Additionally, the 
Chicago Police Department's community service arm, Community 
Alternative Police Strategy (CAPS), has placed thousands of posters in 
targeted neighborhoods warning felons: ``Don't Let This Happen To 
You!'' In stark terms, the posters provide details about specific 
felons from their neighborhoods who were caught carrying guns and are 
now serving long federal prison sentences. Our PSN team has placed ads 
on billboards and buses. Indeed, we have undercover recordings of gang 
members discussing the ads--genuinely wrestling with the risks they 
face by carrying guns. Given that gang members live in an environment 
in which their instinct is to fear walking the streets without a gun, 
we are successful when they start thinking of a gun as risk, not 
safety.
    In addition, in four designated police districts, the PSN partners 
regularly conduct ``parolee forums.'' Some 30 felons at a time, each 
convicted of a gun crime and recently paroled into these districts, sit 
at the same table with law enforcement representatives and community 
leaders. For many of these parolees, when they leave prison, they 
return to the only things that they know--their neighborhoods, their 
gangs, their drug dealing. But at the parolee forums, they are 
presented with a straightforward message that they have a choice in 
life: They can return to the gun-toting criminal life, or they can turn 
to a constructive, non-criminal life. They hear from the law 
enforcement community--the local police, state prosecutors, federal 
agents, and federal prosecutors--who explain that we are focusing on 
felons with guns, and that they face a lengthy sentence in a federal 
prison if they pick up a gun. And they are given examples of PSN 
defendants in their neighborhoods who are serving lengthy sentences. 
Not infrequently, there are loud groans when they hear of a 
neighborhood felon serving 20 years in a federal prison in Kansas for 
the crime of possessing a gun. The idea of law enforcement telling each 
person directly that if he returns to that way of life, the whole law 
enforcement community will be watching is a direct and difficult 
message.
    At the same time, they hear community leaders speak about ex-
offender job programs, educational opportunities, and substance abuse 
programs that are available to them. They also hear from a convicted 
felon, someone who has stood in their shoes, who reiterates the message 
that felons can succeed in turning their lives around, showing them by 
his example that success is an option. These presentations are often 
met with keen interest and follow-up questions from the parolees about 
who they should call and what they should do.
    A final, but important, part of our PSN program in Chicago has been 
the involvement of researchers from the University of Chicago and 
Columbia University, who are studying the program's effectiveness. Law 
enforcement policies often are driven more by instinct and experience 
than rigorous, statistically-based analysis. Because the stakes in 
combating gang and drug violence are literally lives and neighborhoods, 
we want to know everything we can about the effectiveness of our 
efforts so that we can understand which strategies work and which do 
not, and then adapt our tactics to use our limited resources as 
effectively as possible. The researchers brief the PSN partners 
regularly on their statistical analyses of homicide, gun violence, and 
recidivism rates in the targeted PSN neighborhoods.
    One startling result of the research to date concerns the 
effectiveness of the parolee forums. The persons who are summoned to 
attend the forums are randomly selected from the group of felons 
paroled into the districts, and they all attend. Yet, when comparing 
the recidivism rates of felons attending the forums with those who do 
not, the results so far are staggering: 23% of those released between 
2001 and 2004 who did not attend the forums were convicted of another 
crime, while only 4% of those who attended the forums were convicted. 
The rate of recidivism was thus less than a fifth of what it would have 
been. As to recidivism rates for gun crimes, the numbers are as 
follows: 3% of those who did not attend the forums were convicted of 
another gun crime, while fewer than 1% of those who attended the forums 
were convicted. The rate of gun crime recidivism was thus less than one 
third of what it otherwise would have been. The key to the forums is 
the synergy between the ``stick'' of citing specific examples to the 
felons of persons who have been prosecuted for firearms offenses and 
offering the ``carrots'' of alternatives to a life of crime. We 
recently recorded a gang member in jail speaking to a gang member 
outside jail about the crackdown on gang members and guns in Chicago; 
both gang members agreed that the bottom line was that the member 
outside of jail needed to go get a job.
    We have learned that gang involvement begins at an early age and 
the more work we can do with the juveniles in our community to 
intervene when they make poor choices, the more likely we are in 
successfully preventing their involvement in gangs. As such, we have 
started a comprehensive juvenile education program in our ``hot zones'' 
where literally every junior high and high school student participates 
in an eight-week program designed to increase their awareness about the 
risks of gang involvement, encourage independent decision-making, and 
enhance one's self image in order to increase the likelihood that they 
will reject the lure of the gangs.
    If one of the juveniles makes that first bad judgment call, we have 
partnered with the Chicago Police Department and the Juvenile Justice 
System in Chicago to create a program that will replace ``station 
adjustments'' for first-time offenders who commit violent or gang-like 
crimes. Rather than allowing them to slip through the cracks with a 
slap on the wrist, a behavior that later escalates into more egregious 
offenses, we have implemented a program in the new Juvenile 
Intervention and Assessment Center that will require that each juvenile 
who commits an offense indicative of violence or gang involvement to 
enter a 90-day program designed to come down hard on the first offense 
and enlighten the juvenile regarding the harmful impact that his or her 
decision will have not only on his own life but on the lives of his 
family and community. Each juvenile must sign a contract of commitment 
to the anti-violence program that includes private counseling groups, 
public participation in anti-gang presentations at schools, and 
acknowledgment of the harm that they have inflicted upon their victims. 
Failure to successfully complete the program results in prosecution in 
the Juvenile Court System.
    For adult offenders who may have committed their first gun offense 
and have received a sentence of merely probation, we have also expanded 
our parolee forums to probationers. Here the probationers hear the same 
message as the parolees: ``if you pick up a gun, you will be 
prosecuted.'' But again, we offer them opportunity for development. Our 
commitment to combating the problem at the earliest glimpse of 
potential gang involvement and escalating our attack as gang behavior 
increases reflects our commitment not simply to incarcerate those who 
offend but to actually decrease the number of offenders.
    In talking about the effect law enforcement is having, let me 
return to discuss the reign of terror at the public housing buildings 
occupied by the Black Disciples. That reign ended in spring 2004 with a 
47-defendant takedown, that included the arrest of the gang's entire 
top leadership. The case was jointly investigated by the FBI, CPD, and 
IRS. Our office worked closely with the Cook County State's Attorney's 
Office on the investigation and prosecutions, with an Assistant State's 
Attorney being designated as a SAUSA for the investigation and cases.
    Less than two weeks later, we also charged the Mafia Insane Vice 
Lords (MIVLs) street gang, one of the three most powerful factions of 
the Vice Lords street gang. The MIVLs controlled 47 open-air drug 
markets on the west side of Chicago, selling primarily heroin but also 
powder and crack cocaine. Each drug spot earned $5-8,000 per day. A 
total of 48 defendants were charged in the federal case, including the 
``King'' of the gang, Troy Martin, and most of the remaining top 
leadership. An additional 57 defendants were charged by the state at 
the same time in closely coordinated prosecutions. This case was 
investigated by DEA, CPD, and IRS.
                    the effect on the homicide rate
    One of the best measures of the work being done in Chicago to 
attack gangs, guns, and drugs--the homicide rate--shows very positive 
results: in 2001, there were 666 homicides in Chicago. Two years later, 
in 2003, there were 599 homicides, the first time in 36 years that 
there were fewer than 600 murders in Chicago. A year later, in 2004, 
there were 448 murders in Chicago a staggering 25% drop in one year, 
though as noted, 60% of these were gang-related. After taking nearly 
four decades to break the 600 mark, it took one more year to reduce 
homicides to well below 500. And thus far in 2005, homicide numbers 
have decreased another 25%. Something is clearly working. But law 
enforcement in Chicago is not satisfied: gangs and guns still pose a 
lethal threat to Chicago and most starkly to the honest people who live 
in the neighborhoods where gang members vastly outnumber police and who 
are the real victims of gang violence.
    On that note, the fight against gang violence in Chicago has not 
been a partisan effort. Persons of different party, ethnic, and 
governmental backgrounds have been setting aside parochial interests to 
address this problem. Our city and its law-abiding residents are safer 
for that.
             the department of justice's response to gangs
    Chicago is not alone in taking on the problem of gangs. I know from 
my colleague United States Attorneys that gangs threaten many other 
cities and many other districts and that nationwide, the gang problem 
is growing. Accordingly, federal, state, and local law enforcement have 
been teaming up with community partners to take action in the way that 
best suits each district. The Department of Justice (DOJ) is taking 
notice of the threat posed by gangs and by encouraging these 
collaborative efforts.
    DOJ is constructing a national infrastructure that will continue to 
enable reductions in violent crime. In October 2004, the Deputy 
Attorney General established the Subcommittee on Violent Crime and 
Gangs of the Department's Strategic Management Council to ensure that 
DOJ is fully coordinating its efforts to fight violent crime and gangs. 
The Subcommittee consists of heads of key offices within DOJ, as well 
as each of its component law enforcement agencies. Just last month, at 
the direction of the Attorney General, a symposium on gangs was held at 
the Department of Justice attended by United States Attorneys, 
officials from ATF, DEA, the Marshals Service, FBI, the Bureau of 
Prisons and, most importantly, police chiefs and sheriffs from 
different cities around the country plagued with gang problems. In 
preparation for that conference, I had an opportunity to review 
materials submitted by those various districts and was struck by the 
extent to which areas not commonly associated with gangs--such as 
Phoenix and Northern Virginia--are experiencing the gang problem, 
normally associated with Los Angeles, Chicago, and other large cities. 
At the symposium, best practices were shared, and the gathered 
officials discussed what worked and what did not work in different 
regions of the country.
    Two things were clear from the symposium: the gang problem is 
affecting many different regions of the country and there is no one way 
to do it right that applies to every district. Fighting the Black 
Disciples in Chicago is different than dealing with the Hells Angels 
and the Outlaws motorcycle gangs in Arizona, the Bloods and Crips in 
Los Angeles, or the MS-13 in Northern Virginia. One constant that did 
emerge is the need for good intelligence and teamwork between federal, 
state, and local partners.
    No single initiative, no single investigative technique, no single 
statute, and no single preventative measure will always be the most 
effective. Therefore, the Department is taking a multi-disciplined 
approach that allows each component agency to utilize the investigative 
strategies and statutes to which a particular criminal organization is 
vulnerable, as adapted for the local conditions in the relevant 
district.
    As a first step, the Subcommittee amassed a comprehensive catalogue 
of DOJ's gang initiatives and enforcement efforts throughout the 
country, so that the Department can ensure that all of those efforts 
are operating in a coordinated, consolidated, and integrated fashion. 
The Department recognizes the need to partner with state and local law 
enforcement and prosecutors, as well as with community organizations 
and leaders. State and local law enforcement officers, and the 
communities they serve, will always be the first to detect when gangs 
take root and when gang violence threatens the safety of a 
neighborhood. The U.S. Attorney's Office (USAO) in each judicial 
district is frequently the conduit to facilitate different agencies 
coming together, coordinating their enforcement efforts by attacking 
the gang problem from different sides, allowing each agency to use its 
investigative expertise and legal authority to leverage the gang's 
vulnerabilities to various statutes: firearms, narcotics, fugitive, and 
immigration violations.
    Project Safe Neighborhoods (PSN) is a great example of the 
Department's success in partnering with state and local law 
enforcement, prosecutors, and community organizations. PSN was based 
upon the concept of creating a task force in each judicial district 
that focused on identifying the unique violent crime problems of that 
region and then directing the available law enforcement and community 
resources toward eradicating those problems through a data-driven 
strategic plan. The PSN task force coordinates strategy and resources 
to focus on 1) dismantling violent organizations, 2) stopping illegal 
gun traffickers, and 3) enforcing the law against prohibited persons 
possessing firearms. PSN, from its inception, recognized that violent 
criminal organizations, such as gangs, are frequently the most 
disruptive force in many neighborhoods, and that responses to gangs 
among various law enforcement agencies need to be coordinated and 
proactive.
    The PSN strategy used by a number of districts to reduce gang 
violence is to identify and prosecute the gang members who pose the 
greatest threat to the community. In some districts, the strategy 
involves prosecutions of the individual gang member on firearms and 
drug charges. Other districts use the PSN infrastructure to focus on 
the entire street gang, bringing Racketeer Influenced Corrupt 
Organization (RICO) Act and drug conspiracy charges. The PSN Task 
Forces regularly apprize the Department's leadership of their 
activities. In July 2004, 54 of the teams considered gangs to be one of 
the key elements of their gun violence problem, 25 considered gangs to 
be one of the two most important elements of the problem, and 37 
reported a focus on gangs and criminal organizations. PSN has served as 
a catalyst to develop localized strategies through the vigorous 
enforcement of existing firearms laws.
    During the spring of 2004, the Department of Justice identified 15 
cities where homicide rates remained at unacceptable levels. ATF 
responded with the creation of a Violent Crime Impact Team (VCIT) 
concept, customized to mitigate the causes of each city's entrenched 
level of violence. In the majority of the cities, gangs were identified 
as a key component of the communities' violence problems. ATF leads 
these teams, joined by other DOJ components. The U.S. Marshals 
Service's participation allows these teams to leverage the fugitive 
status of gang members. The DEA's participation allows the teams to 
capitalize on the DEA's investigative expertise and statutory authority 
when investigating gangs whose primary focus in drug distribution.
    The VCIT concept was modeled on the collaborative successes of PSN 
through the efforts of ATF and other federal, state, and local law 
enforcement, with additional resources redirected from across the 
United States. The VCITs target specific individuals and specific 
locations for law enforcement operations, empowered through use of 
technologies, such as the National Integrated Ballistic Identification 
Network (NIBIN)--an ATF championed initiative, which matches shell 
cases from unsolved shootings--and crime mapping from synthesized 
firearms trace results. The use of additional resources and new 
technologies are producing results: during the six-month pilot period 
of operation, VCITs have recovered more than 3,000 firearms and 
arrested more than 500 of the 900 identified as serious offenders. 
Collateral to these focused efforts have been the seizure of over $2 
million, the arrest of more than 2,500 other offenders, and the 
apprehension of nearly 400 felony fugitives.
    Based on preliminary results, the VCIT pilot program may be 
contributing to a decrease in homicides. Firearms homicides in the 
targeted areas dropped in 11 of the 15 cities when compared to the same 
six-month period the prior year. And in total, overall homicides with 
firearms for targeted areas in all fifteen cities dropped to 9%. In 
specific cities, the results in targeted areas were even more dramatic: 
77% drop in Greensboro; 67% drop in Chattanooga; 61% drop in 
Pittsburgh; 59% drop in Tulsa; 50% drop in Albuquerque; and 46% drop in 
Tampa.
    As a result of the success of the six-month pilot program, the VCIT 
program has been expanded and is now employed in a total of 20 cities. 
ATF participates in task forces nation-wide that investigate gangs as 
their primary focus, as well as those ATF groups dedicated exclusively 
to gang investigations.
    Firearms trafficking, the illegal diversion of firearms out of 
lawful commerce and into the hands of prohibited persons (such as 
convicted felons, drug dealers, and juvenile gang members), is often 
the method by which gangs arm themselves. By using ``straw 
purchasers,'' who are individuals not prohibited from legally 
purchasing weapons, gang members acquire firearms from federally 
licensed dealers. ATF's firearms trafficking investigation efforts 
prevent gang violence by investigating and prosecuting individuals who 
are illegally supplying firearms to the criminal gang organizations 
committing firearms-related crimes.
    The Safe Streets Violent Crimes Initiative (SSVCI) is another 
collaborative drive to combat gangs. Initiated in 1992, it is a FBI-
sponsored, long-term, proactive task force program focused on 
investigation of gangs acting as criminal enterprises crossing state 
and international borders. The SSVCI encompasses 144 Safe Streets Task 
Forces (SSTFs) across the nation charged with bringing the resources of 
all participating agencies, federal and local, to bear on the 
respective area's violent crime and gang problems. While local and 
state law enforcement can obtain assistance in making an arrest across 
state lines, the FBI has the ability to instantaneously cover a lead 
anywhere in the country. SSTFs across the country enhance state, local, 
and other federal law enforcement agencies by utilizing the FBI's 
developed Enterprise Theory of Investigation (ETI). The ETI is an 
approach supported by technology, which facilitates multi-subject 
investigations of significant enterprises involved in patterns of 
criminal activity, rather than concentrating resources on individuals 
or separate acts.
    Of the current 144 SSTFs, 108 of them are Violent Gang Task Forces 
(VGTFs) located in 33 states, the District of Columbia, and Puerto 
Rico, which focus exclusively on FBI National Gang Strategy targets. 
The VGTFs utilize a variety of investigative methods to identify and 
attack a gang's hierarchy, including undercover operations, 
surveillances, wiretaps, and controlled purchases of drugs, guns, and 
other contraband. Wiretaps are frequently used by VGTFs in an effort to 
capture criminal conversations, which can later be used as evidence to 
prosecute the gang members for their criminal activities. In addition 
to obtaining evidence for prosecution, wiretaps have proven to be 
effective in preventing violent acts, including murders, from being 
committed. VGTFs are effective at building federal and state cases 
against gang members by applying the same methods used in the FBI's 
successful war on traditional organized crime. VGTFs are developing 
racketeering and continuing criminal enterprise cases to remove the 
leadership and the most dangerous members of violent street gangs and 
seize their assets. This investigative approach has been successful 
around the nation, and it has had long-term, positive impact on 
communities plagued by gangs.
    The United States Marshals Service (USMS) is involved in numerous 
gang-related law enforcement efforts as well, including sponsorship of 
83 District Fugitive Task Forces throughout the country, plus five 
regional fugitive task forces. These task forces include 
representatives from hundreds of federal, state, and local agencies. 
Violent fugitives with ties to gangs receive priority attention for 
investigation. From 2003 to the present, the USMS has arrested more 
than 600 gang members and associates. Of those arrested, approximately 
37 percent were Hispanic gang members, 23 percent were members of Crips 
and Bloods gangs, and 11 percent were members of outlaw motorcycle 
organizations. In Chicago alone in 2004, U.S. Marshals arrested 353 
gang fugitives. The USMS coordinates with federal, state, and local 
agencies to focus on specific gang-related fugitives that are a high 
priority because of their history of violence, threat to the community, 
or risk of flight.
    In an effort to prevent gang-related crimes within Bureau of Prison 
(BOP) facilities, the Department participates with federal, state, and 
local law enforcement agencies in support of task forces and 
intelligence units. Through the Central Office Intelligence Section, 
BOP oversees and supervises multiple intelligence teams assigned to FBI 
task forces throughout the United States, as well as conducts other 
intelligence-related functions. The BOP also provides indirect support 
and shared resources through its Special Investigative Staff, members 
of which are assigned to each prison facility. The staff conducts or 
manages complex criminal investigations involving gang-related 
activities, such as homicides, assaults, and drug trafficking. The 
BOP's primary focus on gangs revolves around threats to the safety of 
inmates and BOP personnel, and the suppression of illegal activity 
within BOP facilities.
                               h.r. 1279
    I state my general support for the goals of this bill. I would also 
note that it is important to maintain heavy penalties on gang members--
particularly higher echelon members and those engaging in violence--to 
deter violent activity and to leverage cooperation from gang members 
who are already conditioned to understand they will do some prison time 
but often cooperate when faced with heavier prison time. Cases against 
gangs proceed most effectively when the heavy penalties cause key 
members of the gang to work with authorities to dismantle the 
organization. Ultimately, severe sentencing of gang members results 
more quickly in greater freedom for the community victimized by gangs.
    As an example, during the BD investigation, several BD members and 
associates were arrested on state drug or gun charges. When informed 
that they would be prosecuted in the federal system for that conduct, 
they agreed to cooperate, and provided extensive assistance in 
gathering evidence against BD leaders, many times recording meetings 
and conversations at great personal risk to themselves. This phenomenon 
continued following the arrest and indictment of the BD leadership. A 
large number of those indicted, including some of the highest ranking 
members, have cooperated in the hopes of receiving a lesser sentence. 
This cooperation has resulted in additional evidence against both 
charged and as yet uncharged BD leaders, their drug suppliers, gun 
suppliers, and money launderers. It also produced safer neighborhoods 
for some of Chicago's most vulnerable residents. As I noted, much of 
our work in Chicago depends on our ability to scare offenders into 
going straight with the threat of mandatory sentences for drug and gun 
crimes.
    Along with my colleagues at the Department of Justice, I look 
forward to working with you in the future on this legislation and its 
particulars.
                               conclusion
    I applaud this Subcommittee's efforts to address the war waged 
against our communities by gangs. Thank you for your time and 
attention. I appreciate the opportunity to speak on this important and 
timely matter. I would be pleased to answer any questions the members 
might have.

    Mr. Forbes. Mr. Logli, you are recognized for 5 minutes.

TESTIMONY OF PAUL A. LOGLI, STATE'S ATTORNEY, WINNEBAGO COUNTY, 
  ILLINOIS, AND PRESIDENT ELECT, NATIONAL DISTRICT ATTORNEYS 
                          ASSOCIATION

    Mr. Logli. Congressman Forbes and Congressman Scott, thank 
you for this opportunity, and Congressman Forbes, thank you for 
sponsoring the Gang Deterrence and Community Protection Act of 
2005.
    Since the 1980's, the National District Attorneys 
Association has endorsed the concept of Federal and State law 
enforcement agencies and prosecutors working together to 
address threats such as we are now facing with gangs. We 
believe that what you've begun here, Mr. Forbes, would 
establish a bedrock upon which to build a united effort to end 
gang violence across the United States.
    As with every problem, we've had our successes and failures 
and we've learned in our dealings with gangs that plague our 
communities that what works in one community may not 
necessarily work in another community, but we know that working 
together with our Federal partners, and I have the privilege of 
being a local elected State's Attorney within the jurisdiction 
of the Northern District of Illinois. Mr. Fitzgerald is the 
U.S. Attorney for the Northern District of Illinois. And we 
have, in fact, worked together on Project Safe Neighborhood and 
other initiatives to stem violence and gang activity in my 
jurisdiction.
    We know that we have come to look at stateless terrorists 
as our enemy and we're developing ways to stymie those attacks. 
And I would advance to you the theory that we are facing about 
the same challenge and threats with the transnational gangs 
that are almost freely operating within our borders. In my 
jurisdiction, we have recently seen an increase of Hispanic or 
Latino gangs that are now engaging in the typical turf wars and 
war for drug dealing in our community. As a result of this type 
of conflict, we've had firebombings and murders that are 
scarring my community.
    Now, the problem would have been worse in Rockford, 
Winnebago County, Illinois, but were it not for the fact that 
my local jurisdiction worked in unison with Federal authorities 
in the mid-1990's and we took on a task of going after the 
leadership of the Vice Lords and the Gangster Disciples and the 
Latin Kings. We have eviscerated the leadership of those gangs. 
And now, even 10 years later, our community is safer because 
many of those leaders were rounded up in a joint operation and 
we turned many of them over to the Federal authorities and they 
were sentenced then under very tough sentencing guidelines. 
Many of them went away for very long periods of time. And that 
message that went out to the people in our community, that the 
leaders were rounded up and sent away for very long periods of 
time, lives on today as a positive anti-gang message in our 
community.
    We note--and nothing I say is to take away our support for 
this bill, Mr. Forbes. We strongly recommend, however, that the 
bill specifically contain language that would suggest to U.S. 
Attorneys that they coordinate their efforts with local 
prosecutors so that there is no left hand not knowing what the 
right hand is doing. We would like to see language in there 
that would reduce the possibility of conflict by not clearly 
delineating a process to resolve Federal and local 
responsibilities as we combat gangs together.
    We also note that the Act calls for the establishment of 
High Intensity Interstate Gang Activity Areas. I think that's a 
good idea. I also believe, however, that many of those areas 
would probably be the same areas as what we currently have 
under High Intensity Drug Trafficking Areas, that gangs and 
drugs go hand in hand, and we would suggest that the bill allow 
perhaps the Attorney General to say that this gang, this High 
Intensity Gang Activity Area, could be contiguous with the High 
Intensity Drug Trafficking Area so that we could combine 
resources. Our local prosecutors' offices are already spread 
thin. Instead of having two separate groups, we think that 
there should be some mechanism that they could be combined, 
since gangs and drugs operate hand in hand.
    We've recently seen a spate of attacks on judges and 
prosecutors and witnesses. We believe that this has been going 
on for years as another form of trying to destabilize the 
criminal justice system, and that deals with witness 
intimidation. We note that your Act acknowledges the need to 
provide funds to prosecutors for witness protection and efforts 
to end gang violence, and we applaud that and look to the 
possibility of providing funds not only to Federal prosecutors, 
but also to local prosecutors to afford witness protection. 
There's too much intimidation going on that is really 
jeopardizing our prosecution of gang activity.
    Finally, I do want to lend my support for the continuation 
of funding on Project Safe Neighborhoods. I know that's not 
part of this particular Act, but it goes hand in hand as we 
fight gangs. We recently concluded a joint operation with the 
U.S. Attorney's Office, Mr. Fitzgerald and my jurisdiction. We 
rounded up over 30 people who were in possession or trafficking 
in guns. We took nearly 100 very dangerous firearms off the 
streets of my community, working in conjunction with Federal 
authorities, much of the same type of cooperation that I 
believe you envision under your Act, Mr. Forbes.
    We believe, and in conclusion, we want to be proactive in 
our communities to identify gang threats early. We want to 
respond decisively. And I can tell you that we look forward to 
working with our partners in the U.S. Attorney's Office to 
combat the problems of gangs in our communities.
    [The prepared statement of Mr. Logli follows:]
                  Prepared Statement of Paul A. Logli
    My name is Paul Logli and I am the elected State's Attorney in 
Winnebago County, Illinois. I am now the President Elect of the 
National District Attorneys Association and will become President this 
July.
    At the outset I want to thank Mr. Forbes for sponsoring The Gang 
Deterrence and Community Prosecution Act of 2005 and you, Mr Chairman, 
on behalf of the National District Attorneys Association, for the 
opportunity to present our concerns about gang violence and share some 
thoughts on the what we, and you the Congress, can do to counter this 
threat to public safety. The views that I express today represent the 
views of that Association and the beliefs of thousands of local 
prosecutors across this country.
    Since the late 1980's our Association has endorsed the concept of 
Federal and state law enforcement agencies and prosecutors working in 
unison to address threats such as we are now facing. I view the task 
begun by Mr. Forbes as establishing the bedrock upon which to build our 
united effort to end gang violence across the United States.
    To place my remarks in context--let me briefly tell you about my 
jurisdiction. Winnebago County is located about 70 miles west of 
Chicago. It has a population of nearly 300,000 people living in a 
diverse community. The county seat is Rockford--the second largest city 
in the state. I have been a prosecutor for 18 years and am honored to 
have served in my current position for 16 years, having been elected to 
office 4 times. I previously served as a judge of the local circuit 
court for nearly 6 years. I currently supervise a staff that includes 
38 assistant state's attorneys. Annually, my office handles over 4000 
felony cases.
                          local gang problems
    Excluding adult gangs, motorcycle gangs, hate groups and other 
``adult'' gangs the problem presented just by juvenile gangs is 
staggering in and of itself. The 2002 National Youth Gang Survey, 
published by the Office of Juvenile Justice and Delinquency Prevention 
of the Department of Justice depicts the gang problems we face in stark 
reality.
    It is was estimated that approximately 731,500 gang members and 
21,500 gangs were active in the United States in 2002.
    As with every problem we have our successes and our failures and I 
want to illustrate the impact of gang violence, and what we can do 
about it, by painting the picture as I have seen it in Winnebago County 
during my tenure as State's Attorney.
    My jurisdiction is situated within 75 miles of two major urban 
centers, Chicago and Milwaukee. Like most jurisdictions of our size and 
location, it has been combating the problem of street gangs for the 
last several decades. More recently, Hispanic or Latino gangs have 
become major players in drug and criminal activity. Inter-gang warfare 
between several Hispanic gangs has resulted in fire-bombings and 
murders. The gangs have become increasingly sophisticated and have 
connections not only within this nation, but also with other nations in 
our hemisphere. To reflect the increased sophistication and 
organization of these gangs, the Rockford Police Department has changed 
the name of its task force to the ``Organized Crime Unit,'' replacing 
the previous title of ``Gang Unit''.
    On a positive note, the gang activity would have been greater if it 
had not been for large joint federal and state operations in the mid 
90's that were effective in eviscerating the leadership of the most 
active gangs during that period. The Gangster Disciples, Vice Lords and 
Latin King gangs were the subjects of operations that involved numerous 
arrests of those persons who had been identified as leaders of their 
respective gangs. The major operations followed the most violent years 
in the recent history of our community. 1993 and 1994 will go down as 
the most violent years in regard to the number of homicides within our 
jurisdiction. Fortunately, after the major joint federal and state 
operations that took place in 1993 and 1996, the level of violence 
dropped considerably and has leveled off over the last several years. 
The large-scale operations were effective because they involved law 
enforcement at all levels and concentrated on those individuals who had 
been identified as leaders of dangerous criminal organizations.
    Realize that this is my perspective from a single county in 
Illinois. I think it important for you to understand that in addressing 
this problem there is no single remedy just like there is no single 
template for a gang. Gangs come from all ethnic persuasions and 
communities and have grown transnational in scope. What works in 
Winnebago County may not have equal success in Chicago only 70 miles 
away. Our strategy must reflect flexibility and durability.
    After 9/11 we have come to look at stateless terrorists as our 
enemy and are developing ways to stymie their attacks and defeat them 
on an international scale in a new mode of conflict that does not lie 
in battling sovereign nations. I would advance to you the theory that 
we are facing the same challenges and threats by the transnational 
gangs that almost freely operate within our borders.
    We also know that gang members are not dumb, inept or 
technologically challenged. In one instance we know of gangs arranging 
a confrontation by email and their use of cell phones and other state 
of the art electronic gear is commonplace in their trans national 
dealings. They even brag of their strength on DVDs and CDs.
    Here are some of the problems we've been facing:
    In northern Wisconsin, for instance, the Sovereign Nation Warriors 
(SWN) are active on the Reservation. The professed leader was from the 
Potowatamie tribe while the gang affiliation was associated with the 
Chippewa band--basically an attempt to create a gang that was multi-
tribal in nature. The SWN has been tied into drug trafficking, arson, 
burglary and gang related beatings. Many of those crimes are unsolved 
because of the gang relationship and the refusal of individuals to 
provide information on gang activity. Wisconsin is a state in which 
most of the tribes have contracted away criminal jurisdiction. The gang 
leader was to be prosecuted for arson and burglary of a home on the 
reservation and the tribal police attempted to have the matter brought 
federally because of the gang connection. The U.S. Attorney declined 
prosecution and the Vilas County District Attorney, Al Moustakis, 
prosecuted and convicted the leader.
    Last year in Philadelphia the tragic death Faheem Thomas-Childs 
provides another dimension to the problem. He was a third grader at and 
on his way to school when he was caught in the crossfire of two rival 
drug gangs as they fired dozens of shots at each other. Hit in the head 
by a single shot he died five days later. A Crossing guard was also 
injured in the shoot-out. The community surrounding the school had been 
concerned about gunfire at night and the violence had come to a 
crescendo the nights immediately preceding the killing but the 
community refused to cooperate with police to end the gunfire. On the 
day the Thomas-Childs was shot there were dozens of witnesses but few 
came forward to help identify the killers.
    In April, 2003 Charlotte, North Carolina, police investigated a 
shooting at a public park in Mecklenburg County. One man was killed and 
there were several men injured. The investigation revealed these men 
and the men who shot them were part of a gang called Mara Salvatrucha 
or ``MS-13'' and that these men were from Honduras and El Salvador. 
Police issued eight warrants for individuals charging them with the 
murder in the park; four of those men have been arrested but the others 
are still at large.
    After this incident, police charged other MS-13 members with three 
other murders. Six (6) MS-13 members were charged with the murders of 
two Hispanic males that happened one week prior to the shootings at 
Copperhead Island Park. A number of those charged were either shot or 
shot at the following week at Copperhead Island Park.
    In New York City last week 80 Bloods and Crips showed up at the 
International Auto Show and a fight broke out requiring police 
intervention. No one was hurt in this very public melee but patrons of 
the show had to flee to safety. Even a public forum couldn't abate 
their violence.
    Mara Salvatrucha (MS-13) leaves the body of a woman in the 
beautiful Shenandoah River and the severed fingers of a boy in the 
parking lot of a convenience store in Fairfax County. A Crip from St. 
Louis, Missouri, comes to Virginia to recruit new members into the 
gang. Hits carried out in Virginia by MS-13 have been ``greenlighted'' 
by leadership in California and a key witness was then intimidated when 
his family members were threatened in El Salvador.
    In Massachusetts an assistant state attorney general, Paul 
McLaughlin was detailed to the Boston District Attorney's Office on 
special assignment. He was one of just a handful of prosecutors on the 
city's first anti-gang violence unit.
    In the early autumn of 1995, he was prosecuting a defendant named 
Jeffrey Bly. Nicknamed ``Black,'' Bly was the leader of what was 
perhaps the city's most cold-blooded street gang, the Theodore Street 
Posse, whose members were suspected in several murders. McLaughlin was 
prosecuting him on a carjacking case, and after a couple of setbacks, 
the case was finally ready for trial.
    On the night of Sept. 25, 1995, after another day spent preparing 
to hold Bly accountable for his crime, McLaughlin got off a commuter 
train on his way home and walked to his car. As he reached the car and 
was about to get in, a hooded figure approached, pointed a gun at 
Paul's head, and fired several times. Paul, who was 42, died that 
night, and a new line had been crossed in the annals of Boston's war 
against gang violence.
    A tireless investigation eventually led police and prosecutors to 
Jeffrey ``Black'' Bly. As the investigation proceeded, chilling details 
began to emerge about Bly's targeting of McLaughlin. In the days before 
the murder, Bly had recruited another gang member to follow McLaughlin, 
to learn his habits and his route home. One night, another Theodore 
Street Posse member drove Bly to the train station. Little by little, 
the evidence revealed a planned execution, designed and carried out in 
an attempt by Bly to avoid prosecution. Evidence suggested that months 
earlier Bly had decided to kill the prosecutor and a key witness in the 
carjacking case. When the attempted murder of the witness was botched, 
Bly turned his sights on McLaughlin.
    In February 1998, a Suffolk Superior Court grand jury returned 
indictments charging Bly with Paul's murder, and in May 1999, a jury 
convicted Bly of first-degree murder. He is serving mandatory life 
imprisonment.
    In Rockford, Illinois my own jurisdiction-- a simmering gang 
dispute erupted into gunfire in which gang members fired repeated 
rounds into a home in which they thought a rival gang member had fled. 
The result was the death of 8-year-old DeMarcus Hanson, shot in the 
head and killed while sleeping in his own bed. The 3 gang members are 
currently serving 50 year prison sentences after an aggressive and 
effective prosecution by prosecutors from my office and the office of 
the Illinois Attorney General. And in Illinois, 50 years for murder 
means 50 years--not a day less.
            the gang deterrence and community protection act
    Before looking several aspects of The Gang Deterrence and Community 
Protection Act I want to most wholeheartedly indicate my support for 
what this bill accomplishes. My comments on the legislation are meant 
to enhance its impact and are not to in any manner to detract from what 
has been started by Mr. Forbes and the other cosponsors of the bill. 
What you do here will serve as the foundation for all our efforts.
Unity of Purpose and Effort
    One of out biggest concerns with this, or any, federal legislation 
is to prevent conflict with local investigation and prosecution 
efforts. Our concerns in this regard are centered on the proper 
allocation of all too scarce resources at both the national and local 
levels of law enforcement.
    Local prosecutors are successful in prosecuting crime because they 
have the expertise, experience and connection to the community that is 
needed to combat the types of crimes that most affect the American 
people, and, under consideration here, in combating gang violence. 
Murder, drug dealing, sexual assault, robbery, auto theft, assault, and 
juvenile delinquency are the kinds of offenses that we deal with on the 
streets and in the court every day--over 95% of all violent crime is 
prosecuted by local prosecutors.
    That is not to say we do not need assistance from Federal law 
enforcement. Federal law enforcement agencies and Federal law are 
extremely useful when it comes to long-term, multi-jurisdictional 
investigations and prosecutions. They have the resources and technical 
capabilities many local agencies do not have or need only on rare 
occasions.
    Electronic surveillance, for instance, is beyond the capability of 
many local law enforcement agencies and Federal support in this 
sensitive area is extremely valuable to our mutual efforts. Another 
example is the ability of the Federal system to impose stricter 
sentences in some instances then can state criminal justice systems. 
Federal mandatory minimum sentences have been successfully used to gain 
leverage in taking apart otherwise close knit gangs. We have mandatory 
minimums in Illinois and I know the impact they can have in developing 
cooperation from an otherwise recalcitrant witness.
    It is the ability to bring the respective talents and resources of 
the local and federal authorities together at the appropriate times 
that result in the successes we are all looking for in the fight 
against gangs. I would urge that this become the hallmark of your 
efforts in ending gang violence.
    We have, over the course of the past 6 or more years seen effective 
models of coordination in both PROJECT SAFE NEIGHBORHOOD (PSN) and the 
High Intensity Drug Trafficking Area (HIDTA). These are prime examples 
of team work between federal and local prosecution to achieve the best 
results in any given case, dependent upon the strengths and weaknesses 
of the respective systems.
    To that end, however, the Gang Deterrence and Community Protection 
Act does not contain any mandate to consult or coordinate with local 
prosecutors prior to the assumption of jurisdiction by federal 
authorities. This sets up the possibility of conflict by not clearly 
delineating a process to resolve federal and local responsibilities
    A provision requiring Federal agencies to ``consult and 
coordinate'' with state and local prosecutors, would better serve to 
ensure that federal and local efforts are complementary rather then 
potentially adversarial. I would most strongly recommend that this 
requirement be adopted as the standard in all the areas of your gang 
suppression initiative that involve both federal and local efforts.
High Intensity Interstate Gang Activity Areas
    In Title II, Section 201 the idea of a ``High Intensity Interstate 
Gang Activity'' Area (HIIGA), the concept pioneered by the ``High 
Intensity Drug Trafficking Area'' (HIDTA), is developed as part of the 
gang strategy. Cross designation of local prosecutors, sharing of 
intelligence and cross-jurisdictional efforts have made the HIDTA a 
very strong model upon which to base other efforts.
    This approach has much to commend it but, I would suggest, needs to 
be reexamined in light of the existing drug program.
    A majority of gang enterprise centers on the drug trade, and while 
there may be occasions where drug trafficking does not play a 
predominate role in the economic enterprise of a gang; it is inevitable 
that most HIIGA and HIDTA will be in large degree the same geographical 
areas. Given the scarcity of resources it can be anticipated that there 
will be a de facto* merger of HIIGA and HIDTA efforts as staff for each 
wear more then one ``hat.'' To be very honest most of us don't have the 
resources available to staff two over-lapping efforts of this nature.
    I would suggest that the Community Protection Act should recognize 
this overlap and provide for an existing HIDTA to assume the additional 
role or responsibilities of a HIIGA, with additional resources as 
appropriate. The Attorney General should be given the latitude to merge 
the efforts when there is substantial overlap of effort.
    We have seen what can occur when different agencies work the same 
problem on a competitive basis. Much has been made of the failure of 
the intelligence efforts by the various Federal intelligence and law 
enforcement agencies after 9/11. This is the opportunity to prevent 
this from occurring in fighting gang violence and drug dealing.
Attacks On Our Criminal Justice System
    We've recently seen a spate of attacks on judges and new concerns 
about the safety of those participating in our justice system. Judges, 
prosecutors and even defense counsel have been the subject of threats 
and attacks for years but I would offer to you the premise that these 
attacks on our system of criminal justice have also been ongoing for 
many years through witness intimidation.
    Unlike many of our South American allies we have not yet seen the 
systemic attack on court officials by organized gangs but we have seen 
their efforts at intimidate and eliminate those who would witness 
against them. It is not much of a stretch from murdering a witness to 
the assassination of Paul McLaughlin.
    The Gang Deterrence and Community Protection Act acknowledges the 
need to provide funds to prosecutors for witness protection and efforts 
to end gang violence. We understand that other efforts are being 
considered to the crisis we are experiencing in protecting our system 
of criminal justice and we want to work with you to ensure the sanctity 
of our justice system.
                    project safe neighborhood (psn)
    While outside the scope of consideration of the Gang Deterrence and 
Community Protection Act I want to endorse the continuation of Project 
Safe neighborhood as a very vital ancillary effort to what you are 
trying to do today. As noted previously PSN is a collative effort 
between federal and local law enforcement. It has become a very 
important part of community crime fighting strategies in many part of 
our nation. I would advance that it can become a keystone of your 
efforts to fight gang violence but it must be noted that during the 
last budget cycle the amounts made available for local efforts were 
severely curtailed. If this is to truly be a keystone in the gang 
violence effort then you need to provide resources to keep pace with 
those available to the federal system.
Funding for Local Prosecution Efforts
    We need to be proactive in our communities to identify gang threat 
early and respond decisively. I can tell you that the resources of 
every local prosecutor in the United States are stretched thin now.
    To be very honest we need financial assistance to place local 
prosecutors with the HIIGA; to get the computers to track gang efforts, 
to conduct authorized electronic surveillance of gang members and to 
train our line prosecutors in the dynamics of this threat.
    To support what you envision with the ``Gang Deterrence and 
Community Protection Act'' we will very desperately need the funding 
assistance you offer.
    On behalf of America's prosecutors I, and the National District 
Attorneys Association, urge you to take steps to provide federal 
assistance to state efforts to fight our gang problems and to provide 
us with the resources to effectively protect those brave enough to 
confront the gang criminals. As President next year I plan to make this 
a priority issue for our members.
    We look forward to continuing to work with you on addressing this 
growing problem.

    Mr. Forbes. Michelle Guess.

           TESTIMONY OF MICHELLE GUESS, EDGEWOOD, MD

    Ms. Guess. Good afternoon. My name is Michelle Guess. I am 
here to tell you about the devastating impact of gang violence 
in our community. My family and I have, and still continue, to 
suffer from gang violence. We are, and always have been, law-
abiding people and rely on our faith to help guide us.
    Three years ago, my family and I moved from Philadelphia 
here to the State of Maryland in the suburbs. In Philadelphia, 
we enrolled our children in charter schools because of the poor 
education and the dangerous environment in the Philadelphia 
public schools. We moved to the suburbs because we thought we 
could get away from the dangers of life in Philadelphia. How 
wrong we were.
    My husband and I enrolled our children here in Maryland 
schools. I have nine children, and my husband and I were 
together for 22 years. My husband was a minister and was 
planning to start our church just before he was killed. We 
lived in a nice community, and, we thought, a safe one. Yet I 
soon learned about the growing problems of gangs.
    Just before this Christmas, a gang member killed my 
husband, and he just happened to be a friend of my daughter, 
went to school with her. These gangs in the community where I 
live at, they don't look like the normal gangs, or dress like 
normal gang people. They live in good homes, I mean, very good 
homes. And their parents don't even know that a lot of them are 
a part of these gangs. They're not even allowed to tell their 
parents. And it is very hard in raising my nine children and 
knowing I can't even allow my kids to go to any of their 
friends' homes because I don't know who lives in their 
household.
    We had an incident where my daughter was over at a friend's 
of hers home, and it was very hard for me to allow her to be 
there. I literally went and dragged her out of their home 
because we found out that the gentleman that was visiting is 
from another State and he was a Blood, and, when I found out 
that he was in that home, I went and dragged my daughter out of 
there. I can't even allow my kids to go in any of my neighbors' 
homes because I don't know who lives in there. You will not 
recognize them just by looking at them.
    My 10-year-old son's here with me. That last year, a friend 
of his, they had reported that he'd possibly gotten shot or 
whatever. He's 10 years old. And he told my son that he was a 
part of a gang. He was like a runner, drug run for these--
because they don't expect the children. And when my son told me 
that, that is very fearful for a mother, for any parent, that 
in our community we can't even tell who's who. That's scary.
    And we as parents and as authority figures have to protect 
our children. We have to protect our community. We can't put a 
price on the life of a child, the life of our children. We 
can't.
    When someone does something wrong, they must pay for what 
they have done, regardless. Yes, I agree that we need to do 
prevention, but we need to give them the opportunity. They must 
make the decision, just like they made the decision to shoot my 
husband. They made that decision, and, whatever decision they 
make, there are consequences and we must understand that we 
cannot put a price on our children. Our children are our 
tomorrow.
    They go to these gangs because these gangs promise to 
protect them. Why don't our children come to us? Because we 
turn our face from them and we put our hands under the table 
and we let these gangs run the life of our children, our own 
life, when we can't even live, we can't even enjoy life because 
we allow them, because we want to put a price on the life. We 
can't put a price on a life. When that life is taken from you, 
you can never put a price on life.
    We must do whatever. We have to, to protect our children, 
our community, our neighbor. We have to. We have to. Thank you. 
Thank you.
    [The prepared statement of Ms. Guess follows:]
                  Prepared Statement of Michelle Guess
    Good morning. My name is Michelle Guess. I am here to tell you 
about the devastating impact of gang violence in our communities. My 
family and I have, and still continue, to suffer from gang violence. We 
are, and always have been, law-abiding people, and we rely on our faith 
to help guide us.
    Three years ago, my family and I moved from Philadelphia here to 
the Maryland suburbs. In Philadelphia we enrolled our children in 
charter schools because of the poor education and dangerous environment 
in the Philadelphia public schools. Our neighborhood was controlled by 
gangs and gang violence. Our schools were filled with gang members. We 
moved to the Maryland suburbs because we thought we could get away from 
the dangers of life in Philadelphia. How wrong we were.
    My husband and I enrolled our children here in Maryland public 
schools. I have nine children and I was married to my husband for 22 
years. My husband was a minister and was planning to start his own 
church in Maryland just before he was killed. We lived in a nice 
community--we thought a safe one. Yet, I soon learned about the growing 
problem of gangs. My children were threatened in school. They were 
bullied and threatened to join a gang or suffer the violent 
consequences. My children lived in fear--gang members made it clear 
that if kids reported the gang's efforts to recruit new members, their 
parents would be threatened.
    Just before Christmas, a gang member killed my husband by shooting 
him in the head for no reason other than complying with a gang 
initiation requirement--murder of an innocent civilian. My husband was 
working late driving a taxi and was lured by gang members to a 
neighboring street to our home, where he was shot and killed--nothing 
more than a random gang initiation ritual. My husband did nothing 
wrong. He loved his family and all of his children. He was simply a 
random and convenient victim of this violent gang.
    I am here today because I believe so strongly that we need to stop 
gangs now--and stop them dead in their tracks. My husband would be 
alive today if the gang that killed him was in jail. We have to stop 
gang behavior and the evil spread of gangs. Nothing we can do will 
bring my husband back. But we can do something to stop gangs now. To 
make sure that families like mine do not go through such a horrible 
event, I am here today to tell you that the gang problem is real and 
that we must do everything in our power to stop it so that our 
communities can be safe.

    Mr. Forbes. Professor Shepherd, you have 5 minutes.

  TESTIMONY OF ROBERT E. SHEPHERD, JR., EMERITUS PROFESSOR OF 
    LAW, UNIVERSITY OF RICHMOND SCHOOL OF LAW, RICHMOND, VA

    Mr. Shepherd. Chairman Forbes, Congressman Scott, Members 
of the Committee, I thank you for this opportunity to be with 
you. I feel very much at home with Congressman Forbes and 
Congressman Scott, being two highly distinguished alumni of the 
Virginia General Assembly, where I have appeared for many 
years.
    First, like Chairman Forbes, I would like to thank 
Congressman Frank Wolf of Virginia for his successful efforts 
in 2004 as part of the appropriation process to fund anti-gang 
activities which had been cut in the budget presented by the 
President. These funds have helped to contribute to efforts to 
suppress gangs in Virginia, especially in the Northern part of 
the State.
    I also want to thank Congressman Bobby Scott of Virginia 
for his successful contributions through the years to 
bipartisan efforts in support of the Juvenile Justice and 
Delinquency Prevention Act, which has been the best possible 
vehicle for protecting society from anti-social behavior by 
children and adolescents, and for enabling these youth to 
become good citizens.
    Second, I urge this Subcommittee and Congress to reject the 
approaches taken in H.R. 1279 regarding juveniles, particularly 
section 115, as being counterproductive to protecting the 
safety of the community and as contrary to the best evidence of 
what works well with youth who may engage in serious and 
violent delinquent behavior.
    My first concern is about the continued federalization of 
the substantive criminal law, historically the domain of the 
States. I share the concerns of the Judicial Conference of the 
United States expressed in its letter of April 1 regarding the 
specific problems presented by federalizing behavior by 
juveniles. Federal courts are not really equipped to address 
the particular issues and needs of adolescents, and Federal 
correctional institutions do not have the programs suited to 
young people, as the Judicial Conference readily acknowledges. 
In fact, most youth tried and convicted in Federal courts end 
up in State facilities because there is no Federal juvenile 
justice facility.
    Second, addressing specifically section 115, the increased 
use of transfer to adult court of juveniles is unwise and 
contrary to evidence regarding the implications of transfer or 
certification. Every recent study by researchers in Florida, 
Minnesota, New York, New Jersey, and Pennsylvania are 
consistent in showing that youth transferred to adult court and 
tried as adults had higher recidivism rates. They reoffended 
sooner after release from adult institutions. And their repeat 
offenses were more serious than similar youth retained in 
juvenile court for the same offenses in the same or comparable 
jurisdictions.
    I would also point out that in the context of this 
particular issue, sending a juvenile convicted of gang activity 
into an adult institution dominated perhaps by gangs may be 
entirely counterproductive. Juveniles incarcerated in adult 
institutions are also at greater risk of assaults, and the 
research clearly shows that policies that increase the transfer 
of juveniles to adult court have a disproportionate impact on 
children of color.
    Making the decision whether to transfer a youth charged 
with gang-related violent behavior to the Federal court solely 
a prosecutorial decision which is not reviewable by a court is 
also unwise. I would note that that unreviewability might even 
prevent an examination of whether the juvenile is competent to 
stand trial.
    The mandatory minimum provisions are also problematic. 
Juveniles involved in gang activity may not be equally 
culpable. They may have been lookouts rather than trigger men. 
As Bob Schwarts of the Juvenile Law Center in Philadelphia is 
fond of saying, Oliver Twist, the ``Artful Dodger,'' Bill 
Sikes, and Fagin were not equally culpable in their criminal 
activity in Dickens' London, but they would be under this bill.
    A report released last year by Fight Crime: Invest in Kids 
gives a good blueprint of what should be done from the 
perspective of law enforcement about dealing with young people 
in gangs, and I recommend it to the attention of the Committee.
    In wrapping up, I would like to say to the Committee that 
the best way of dealing with a lot of these issues, as many of 
the other speakers have indicated, is through an effective 
partnership between local prosecutors and Federal prosecutors, 
supported by technical assistance and resources from the 
Federal Government, especially through the Federal Juvenile 
Justice and Delinquency Prevention Act. Thank you.
    [The prepared statement of Mr. Shepherd follows:]
             Prepared Statement of Robert E. Shepherd, Jr.
    Mr. Chairman, Members of the Committee, I am Robert E. Shepherd, 
Jr., Emeritus Professor of Law at the University of Richmond Law School 
in Virginia, and a former Chair of the Juvenile Justice Committee of 
the American Bar Association. I am here to present testimony on H.R. 
1279, the ``Gang Deterrence and Community Protection Act of 2005,'' and 
I thank you for the opportunity to speak to you about this bill.
    First, I would like to thank Congressman Frank Wolf of Virginia for 
his successful efforts in 2004 as part of the appropriation process to 
fund anti-gang activities, which has contributed greatly to efforts to 
suppress gangs in Virginia, especially in the northern part of the 
state. I also want to thank Congressman Bobby Scott of Virginia for his 
successful contributions through the years to bipartisan efforts in 
support of the Juvenile Justice and Delinquency Prevention Act (JJDPA). 
That Act, originally enacted more than thirty years ago, has 
contributed greatly to the prevention of delinquency, to early 
intervention in the suppression of delinquency, to treating delinquent 
behavior and rehabilitating delinquent youth so as to prevent future 
delinquency, and to ensuring humane treatment of these young people in 
the juvenile justice system. The Act, and its programs, is still the 
best possible vehicle for protecting society from antisocial behavior 
by children and adolescents and for enabling these youth to become good 
citizens and successful adults.
    Second, I urge the subcommittee and the Congress to reject the 
approaches taken in H.R. 1279 regarding juveniles, particularly in 
Section 115 concerning juveniles, as being counter-productive in 
protecting the safety of the community and as contrary to the best 
evidence of what works well with youth who may engage in serious and 
violent delinquent behavior. My first concern is about the continued 
federalization of the substantive criminal law, historically the domain 
of the states. State and local governments are best informed about what 
would be successful in addressing a crime problem locally or within a 
state, although there may be an important federal role in providing 
technical assistance and intelligence about unique problems. Virginia, 
for example, has enacted a number of laws in recent years to address 
gang-related criminal activity, including a gang registry, most of 
which apply to juveniles as well as adults. I share the concerns of the 
Judicial Conference of the United States, expressed in its letter of 
April 1, 2005, regarding the specific problems presented by 
federalizing criminal behavior by juveniles. Federal courts are really 
not equipped to address the particular issues and needs of adolescents, 
and federal correctional institutions do not have the programs suited 
to young people, as the Judicial Conference readily acknowledges. 
Indeed, most youth tried and convicted as juveniles in federal courts 
are placed in state juvenile correctional facilities because there is 
no federal counterpart.
    Third, addressing specifically Section 115, the increased use of 
transfer to adult court of juveniles, even sixteen- and seventeen-year-
olds, is unwise and contrary to much evidence regarding the 
implications of transfer or certification. Several recent studies, by 
researchers in Florida, Minnesota, New York and New Jersey, and 
Pennsylvania, are consistent in showing that youth transferred to adult 
court and tried as adults had higher recidivism rates, they re-offended 
sooner after release from adult institutions, and their repeat offenses 
were more serious than similar youth retained in juvenile court for the 
same offenses in the same or comparable jurisdictions. (Lanza-Kaduce, 
Frazier, Lane & Bishop; Greene & Dougherty; Fagan; Mayers; Podkopacz & 
Feld; Coalition for Juvenile Justice) Thus, treatment as an adult 
created a greater risk for community safety in the long term than did 
juvenile treatment. A Miami Herald study of the Florida experience in 
2001 concluded that ``[s]ending a juvenile to prison increased by 35 
percent the odds he'll re-offend within a year of release.'' (Greene & 
Dougherty) Although there are no studies I know of on this particular 
point, it seems logical that sending a juvenile tried as an adult for 
gang-related offenses to an adult facility dominated by gangs would 
intensify that reported effect.
    Juveniles incarcerated in adult correctional institutions are also 
at greater risk of assaults, both sexual and physical. Studies show 
that such youth are five times as likely to report being a victim of 
rape, twice as likely to be beaten by staff, and 50% more likely to be 
assaulted with a weapon than youth in juvenile facilities and they are 
eight times more likely to commit suicide. (Audi; Forst, Fagan & 
Vivona) Would not the fear of such assaults drive the youth even 
further into the arms of adult gang members in the same institution for 
protection?
    Policies that increase the transfer of juveniles to adult court 
also have a disproportionate impact on children of color. Recent 
studies have shown that more than seven out of every ten youth admitted 
to adult facilities across the country were youth of color, and 
minority youth are more likely to be treated as adults that white youth 
charged with the same offenses. (Poe-Yamagata; Ziedenberg; Males & 
Macallair; Coalition for Juvenile Justice)
    Making the decision whether to transfer a youth charged with gang-
related violent behavior to the federal court for trial as an adult 
solely a prosecutorial decision which is not reviewable by a court is 
also unwise, and violates our basic concepts of due process and fair 
play. The legislation also allows any other offenses committed that are 
not covered by the Act to be tried as adult offenses, including lesser 
included offenses, thus putting some perhaps trivial charges in federal 
district courts as well. The bill provides no exception to non-
reviewability for jurisdictional issues such as non-age--a fifteen-
year-old mistakenly identified as being older--or for young people who 
may not be competent to stand trial as an adult, a high risk scenario 
as many youth who engage in risky behaviors have mental health 
problems. The Virginia statute that allows a prosecutor to seek adult 
handling provides that the juvenile court still has to find the 
presence of probable cause and that the juvenile is competent to stand 
trial. And the adult court can reconsider the prosecutor's decision and 
treat the youth as a juvenile in making sentencing decisions.
    Fourth, the mandatory minimum provisions in HR 1279 are also 
problematic, especially for adolescents. Judges should have broad 
discretion in sentencing adolescents, even when they are tried and 
treated as adults. As noted above, Virginia does this as part of its 
statutory framework for transfer. Juveniles involved in gang-related 
activity frequently have less culpability than the adults they 
associate with in antisocial behavior, they may be a lookout rather 
than a triggerman, and yet the legislation denies the court the power 
to discriminate among different levels of involvement and different 
kinds of behavior. As Bob Schwarts of the Juvenile Law Center in 
Philadelphia is fond of saying, Oliver Twist, the ``Artful Dodger,'' 
Bill Sikes, and Fagin were not equally culpable in their criminal 
activity in Dickensian London, but they would be under this bill. Also, 
longer sentences are not necessarily better and more protective of 
society, especially where juveniles are concerned.
    Fifth, although juveniles charged as adults with capital offenses 
cannot be sentenced to death under the federal death penalty statute or 
Roper v. Simmons, does this legislation still expose them to a ``death-
qualified jury,'' especially if they are tried jointly with adults? 
That question seems to linger in the air, without any clear answer 
provided in the bill.
    Recent data show a stark reduction in the rate and seriousness of 
juvenile delinquency in the past nine or ten years, contrary to the 
dire predictions of many ``experts'' whose ominous writings shocked 
legislators into abandoning the core principles of the juvenile system. 
Those principles, separating delinquent youth from hardened criminals, 
treating youth as developmentally different from adults, and viewing 
young people as being inherently malleable and subject to change in a 
rehabilitative setting, are still fundamentally sound. Indeed, as we 
have learned more from the developmental and brain research in recent 
years, we know better what does work in turning around these young 
lives and correcting their behavior. Several treatment programs for 
juvenile offenders, even those charged with serious and violent 
offenses, have been thoroughly evaluated and work well in reducing 
recidivism. (E.g., Functional Family Therapy, Multidimensional 
Treatment Foster Care, and Multisystemic Therapy--all are community-
based and deal with the youth in several different dimensions of his or 
her life.) And we know that trying them as adults is destructive and 
counter-productive, especially with mandatory minimum sentences.
    A report released last year by Fight Crime: Invest in Kids, a law 
enforcement-based group, points to the effectiveness of many current 
programs in preventing gangs--at the local and state level--and in 
interdicting violent gang activity. That report, Caught in the 
Crossfire: Arresting Gang Violence by Investing in Kids, offers much 
useful advice about programs that work with the help of federal 
investment in anti-gang programs through the JJDPA and other entities.
    I respectfully urge you to continue your historical focus on 
funding delinquency prevention and intervention programs through the 
Juvenile Justice and Delinquency Prevention Act, supplemented by 
further technical assistance to, and collaboration with, local 
authorities by the Justice Department and its entities, rather than 
increasing federal district court jurisdiction over young people with 
their different perspectives and characteristics. The Office of 
Juvenile Justice and Delinquency Prevention, utilizing JJDPA funds, is 
assisting in the sponsorship of the National Youth Gang Symposium in 
early June in Orlando, Florida to focus on effective anti-gang 
strategies with juveniles, and this is an example of the more effective 
federal role in addressing gangs.
                               references
Coalition for Juvenile Justice, Childhood on Trial: The Failure of 
    Trying and Sentencing Youth in Adult Courts (2005).
Audi, Tamara, ``Prison at 14: Teenage Girls Serve Time with Adult 
    Inmates,'' Detroit Free Press, July 10, 2000.
Fagan, Jeffrey, The Comparative Impacts of Juvenile and Criminal Court 
    Sanctions on Adolescent Felony Offenders (National Institute of 
    Justice, U.S. Department of Justice, 1991)
Fight Crime: Invest in Kids, Caught in the Crossfire: Arresting Gang 
    Violence by Investing in Kids (2004).
Forst, Martin, Jeffrey Fagan & T. Scott Vivona, ``Youth in Prisons and 
    Training Schools: Perceptions and Consequences of the Treatment-
    Custody Dichotomy,'' 40 Juvenile & Family Court Journal (1989).
Greene, Ronnie & Geoff Dougherty, ``Kids in Prison: Tried as Adults, 
    They Find Trouble Instead of Rehabilitation,'' Miami Herald, March 
    18, 2001.
Lanza-Kaduce, Lonn, Charles E. Frazier, Jodi Lane & Donna Bishop, 
    Juvenile Transfers to Criminal Court Study: Final Report (Florida 
    Department of Juvenile Justice, Office of Juvenile Justice and 
    Delinquency Prevention, 2002).
Males, Michael & Daniel Macallair, The Color of Justice: An Analysis of 
    Juvenile Adult Court Transfers in California (Building Blocks for 
    Youth, 2000).
Mayers, David L., Adult Crime, Adult Time: Punishing Violent Youth in 
    the Adult Criminal Justice System (Sage Publications, 2003).
Podkopacz, Marcy R. & Barry Feld, ``The End of the Line: An Empirical 
    Study of Judicial Waiver,'' 86 Journal of Criminal Law & 
    Criminology 449 (1996).
Poe-Yamagata, E., And Justice for Some (National Council on Crime and 
    Delinquency, 2000).
Ziedenberg, Jason, Drugs and Disparity: The Racial Impact of Illinois' 
    Practice of Transferring Young Adult Offenders to Adult Court 
    (Building Blocks for Youth, 2002).

    Mr. Forbes. We want to thank all of the witnesses for their 
testimony.
    Now we're going to enter another round where we're going to 
be able to ask you some questions, if you don't mind responding 
to those questions. We'll each only have 5 minutes to ask the 
questions, so if you can, keep your answers as concise as 
possible because we've got a short period of time. And all of 
your written statements will be admitted to the record, without 
objection.
    I'm also going to admit to the record, without objection, a 
letter from the Fraternal Order of Police with their 
endorsement of this bill.
    [The letter from the Fraternal Order of Police follows in 
the Appendix]
    Mr. Forbes. Now I recognize myself for 5 minutes.
    Mr. Fitzgerald, I want to come back to you. You heard what 
Mr. Conyers said regarding heavy and mandatory sentences as 
they relate to breaking up gang activities. You've been where 
the rubber meets the road. Can you tell us your feeling about 
heavy and mandatory sentences and the effect they have on 
breaking up this kind of violent gang activity?
    Mr. Fitzgerald. Yes, Congressman. One of the problems we 
face is if you look at the statistics of the people who 
actually commit murders, I believe 80 percent of the people who 
commit homicides in Chicago have been arrested something like 
seven or eight times before. Also, the victims, I think, have 
been arrested almost as many times. And you have people who 
have gone through a revolving door of being arrested and going 
back out to the street and remaining are predators on the 
street and posing a risk to others.
    And if you identify those persons most likely to kill, 
those are the people we seek to prosecute both by 
incapacitating them, removing them from that housing project 
where the other residents are held captive, and secondly, using 
them to leverage, frankly, the deterrence value: to tell other 
people in the community, you saw what happened to so-and-so who 
had a reputation on the street. That person has now gone away 
to Federal prison and he is serving time.
    And, in fact, Johnny Cochran was one of the people that 
participated in one of the Project Safe Neighborhood ads 
showing people that if you carry a gun, these people are 
serious. You're going away. I think he saw the value in 
advertising and deterring what it is that we do by selecting 
the most violent offenders, leveraging their penalties, and 
using that to get them to cooperate and give up information 
which lets us go up the food chain and get the gang leaders.
    Mr. Forbes. Can you also tell us the Department of 
Justice's opinion or their position regarding authorized direct 
filing by prosecutors against 16- and 17-year-old juveniles who 
are alleged to have committed criminal gang acts of violence 
and what role, if any, that plays in dismantling violent gangs?
    Mr. Fitzgerald. I'll start with the latter. I think the 
Department of Justice is still working on the official 
positions on the markup. I can tell you that if there were 
direct file of juveniles, the volume of juveniles that would be 
prosecuted would still be rather small. We are looking at 
70,000 to 100,000 gang members in Chicago. In a good year, 
where everyone works very hard, we're going to prosecute 
hundreds of gang members, not thousands, not tens of thousands. 
We do triage to pick out the worst offenders.
    To prosecute a juvenile is still difficult, very difficult 
now because of all the different procedures and the housing 
issues. We would select out, certainly in my office, only those 
offenders who merited the prosecution. If someone is committing 
murders and they're at 17, compared to an 18-year-old, that's 
an option we'd like to have to take out the most violent 
offenders. We're not looking to make prosecution of juveniles a 
volume business in the Federal Government. We can't, just by 
the sheer numbers of gang offenders and the violence going on.
    Mr. Forbes. Ms. Guess, can you tell us, the gang member 
that shot your husband, can you tell us, the individual that 
pulled the trigger, how old he was, and did he even know your 
husband?
    Ms. Guess. He was 17 years old and we believe he did know 
who my husband was because he knew my daughter.
    Mr. Forbes. Do you have any idea of the motive, why he 
killed your husband?
    Ms. Guess. Gang initiation.
    Mr. Forbes. Mr. Shepherd, you talked about in your written 
statement and also in your verbal statements about prevention 
programs. I know you've studied many of the prevention programs 
in the United States Congress and the funding for those 
programs, have you not, in your relationship as a juvenile 
justice expert? And I certainly recognize what Mr. Scott said. 
Can you tell us how much funding we should be spending for the 
prevention programs for criminal gang activity at this 
particular point in time?
    Mr. Shepherd. Well, I think funding the authorization would 
be a good place to start. What is authorized----
    Mr. Forbes. Can you give me a dollar figure?
    Mr. Shepherd. I don't know the exact figure. I'm----
    Mr. Forbes. Can you give me a ballpark?
    Mr. Shepherd. I can't. I'm sorry.
    Mr. Forbes. So then right now, you really don't know how 
much we're funding?
    Mr. Shepherd. Well, I know that it's less than what is 
authorized in the Act.
    Mr. Forbes. Do you know how much is authorized?
    Mr. Shepherd. The amount that's authorized in the Act would 
be about $300, $400 million.
    Mr. Forbes. If they were spending $300 or $400 million on 
prevention programs, do you think that would be adequate?
    Mr. Shepherd. Well, not adequate, but keep in mind that the 
way that Federal money is used is with matching funds from the 
State through the various State Advisory Groups, which I'm a 
member of in Virginia, and we get matching funds from the 
localities as well as from the State. So the Federal money is 
basically seed money that helps to generate additional funds 
throughout the Commonwealth of Virginia for a whole variety of 
programs, including some of the Boys and Girls Clubs programs 
and some of those programs are also earmarked under the Federal 
Act directly, so the money comes into Virginia directly from 
the Federal Government. But the programs basically are 
generated by the Federal Government through the State to the 
localities to target programs.
    Mr. Forbes. Thank you. My time has expired.
    I would like to now recognize Congressman Scott for 5 
minutes.
    Mr. Scott. Thank you. Thank you, Mr. Chairman.
    Mr. Logli, Ms. Guess has described a cold-blooded murder. 
You don't need any new Federal legislation to prosecute such a 
crime, do you?
    Mr. Logli. Assuming it didn't happen on a military base, 
something of that nature, we would handle it as a local matter. 
In Illinois, we have mandatory minimum sentences and that----
    Mr. Scott. For a cold-blooded murder like that, if a person 
is caught and prosecuted, what would present law provide for 
them?
    Mr. Logli. He would face a mandatory minimum sentence of 20 
years.
    Mr. Scott. Without--and what would they usually get? 
Somebody just shoots somebody in cold-blooded murder.
    Mr. Logli. I think we'd be looking at 30 or 40 years, 50 
years, perhaps. And in Illinois, we have truth in sentencing, 
so with murder, they serve every day. There is no good time.
    Mr. Scott. So what difference would this bill make?
    Mr. Logli. I believe this bill may not make a difference in 
that type of street murder----
    Mr. Scott. Okay. I only have 5 minutes.
    Mr. Logli. Okay.
    Mr. Scott. Mr. Shepherd, are you aware of any peer-reviewed 
studies that would suggest that the provisions of this bill 
would actually reduce crime?
    Mr. Shepherd. The techniques that are incorporated in this 
bill have pretty well been proven not to reduce crime, 
especially where juveniles are concerned, who are not 
specifically deterred. I mean, they act, as the Supreme Court 
noted in the death penalty case, on the basis of impulse.
    Mr. Scott. Thank you. And Mr. Fitzgerald, are you aware of 
best practices to actually reduce crime and whether or not 
those provisions are in this bill or could be found elsewhere?
    Mr. Fitzgerald. Best practices? We found that the best 
practice is, for example, to go after the worst offenders, if I 
give the example of the ``Top 20'' list----
    Mr. Scott. Have you seen any published studies of best 
practices, how to reduce juvenile crime?
    Mr. Fitzgerald. We don't read published studies. We sit 
down with the people enforcing the law and exchange ideas that 
have been tried----
    Mr. Scott. Does the Department of Justice have a website 
that outlines best practices?
    Mr. Fitzgerald. I know we had a conference which I helped 
organize last month about best practices for gangs. As far as 
juveniles, I'd have to get back to you on that, since----
    Mr. Scott. Are those best practices reflected in this 
legislation?
    Mr. Fitzgerald. I'd have to get back to you on that, on 
whether or not--what publications it might be, how it 
corresponds to the bill.
    Mr. Scott. Okay. Mr. Shepherd--well, let me ask, there's a 
provision in here that provides for gang crimes and it appears 
to suggest that if you belong to the gang, therefore, you would 
be guilty. Everybody in the gang would be guilty. Do you read 
it that way?
    Mr. Fitzgerald. I don't believe so. I think that that 
provision of section 521, and the Department of Justice is 
doing a review of the bill, requiring, I think, that there be 
three or more persons that have to participate in a crime. I 
don't----
    Mr. Scott. That to be found guilty, you would actually have 
to have some participation in the crime?
    Mr. Fitzgerald. In a crime or conspiracy, mere membership 
alone would not be a crime, is my understanding.
    Mr. Scott. Okay. Well, how is that different from the 
conspiracy law now?
    Mr. Fitzgerald. It depends on the offense you commit. In 
conspiracy law, if there's a drug offense, you could be guilty 
of a drug offense now, where if there's a non-drug offense, the 
predicate offenses in the proposed bill would depend on the 
violation you commit.
    Mr. Scott. What kind of situation would exist where you 
could prosecute somebody under the bill that you could not 
prosecute them under normal conspiracy law?
    Mr. Fitzgerald. Most likely, it would be where gangs are 
not involved in drug trafficking. In Chicago, for example, 
gangs are heavily involved in drug trafficking, but at that 
conference I----
    Mr. Scott. Help me out here. Let's talk about a specific 
defendant. Let's talk about a specific defendant. If you can't 
get them for conspiracy now, how could you get them under the 
bill?
    Mr. Fitzgerald. If the conspiracy to commit an offense--
conspiracy is a way to commit another offense--if the offense 
that they're committing is not now punished under the drug 
statutes, if it were a violent crime that's not directly 
related to drug trafficking, that's my understanding. I 
haven't----
    Mr. Scott. So if a person has no involvement in a 
particular crime that you can't get them for conspiracy, you 
can get them roped in because they are a member of the gang?
    Mr. Fitzgerald. No. What I meant to say was, if the gang is 
not involved in drug trafficking or you can't prove the gang is 
not involved in drug trafficking, you would not be able to 
charge them with a drug conspiracy. But if they got involved in 
extortions and robberies and assaults and attempted murders, 
you would use--you could use that statute to charge that.
    Mr. Scott. Even if the defendant had no role in the crime?
    Mr. Fitzgerald. If the----
    Mr. Scott. For which you could not get them for a 
conspiracy.
    Mr. Fitzgerald. No. I think I confused you. I meant, if you 
couldn't charge them with drug conspiracy----
    Mr. Scott. No, if a person--if you can't get a person for 
conspiracy, can you get them under the bill for a crime for 
which they could not be charged--but, I mean, you can jump 
around and say, well, you might have charged them for this or 
that, but if they're involved in a conspiracy, you've got them, 
right?
    Mr. Fitzgerald. A conspiracy is always tied to a specific 
offense. We have to prove it to a jury.
    Mr. Scott. Okay.
    Mr. Fitzgerald. So if the conspiracy was for a crime that 
isn't now a Federal crime for which there's Federal 
jurisdiction, this would make a difference, and my example for 
drugs is if you have a drug conspiracy, you could charge 
someone now with a drug conspiracy. But if there're 
conspiracies to get robberies and assaults carried out by an 
enterprise of three or more members as part of a gang, that 
would not violate the drug conspiracy laws because the assaults 
may be unrelated to drugs.
    Mr. Scott. That's right, but you could get them for 
violating the robbery laws, couldn't you now?
    Mr. Fitzgerald. But to get a Federal violation of robbery, 
you need an interstate commerce element. So robberies are not a 
Federal crime in and of themselves.
    Mr. Forbes. The gentleman's time has expired.
    I would now recognize Representative Lungren for 5 minutes.
    Mr. Lungren. Thank you very much, Mr. Chairman. I am very 
interested in this subject. I think it does have issues of 
Federalism. It does have issues of effective law enforcement. 
As Attorney General of California, I was very much involved 
with writing legislation in California dealing with violent 
laws, or violent crimes. Actually, we utilized a number of the 
things that are suggested in this bill at the State level. Over 
an 8-year period of time, we saw the lessening of violent 
crimes by about 35 percent and a drop in the homicide rate of 
50 percent in 8 years utilizing many of the same things that 
are in this bill, or that approach, at least, at the State 
level.
    I still am concerned sometimes about federalization of all 
crimes, but I note also we've been extremely successful in 
allowing participation of Federal prosecutors in those 
appropriate places where oftentimes the penalties were greater 
than they were on the State level going after the worst 
malefactors involved.
    Professor Shepherd, I wondered, in your written submitted 
testimony, you assert that the objective of handling violent 
and delinquent juveniles is a question of dealing with anti-
social behavior, and I'm always interested in that because that 
suggests that a juvenile is involved in anti-social behavior 
but an adult is involved in criminal behavior. Do you 
distinguish between a 17-year-old, 6 months who commits a 
murder like Ms. Guess's husband was the victim of and if he 
were 18 years old and a day?
    Mr. Shepherd. Well, we certainly make distinctions about 
that in every other aspect of the law. When it comes to 
contracts and now the death penalty and a lot of other things, 
we draw arbitrary bright lines and every State does in its 
jurisdiction. Obviously, States do have mechanisms for 
transferring some juveniles to adult court for particular types 
of behavior, and I don't find that inappropriate if it's used 
judiciously. I think California does a better job of that than, 
say, Florida does and some other States where it is, indeed, a 
last resort rather than being almost automatic based on the 
nature of the offense.
    Mr. Lungren. As I understand here, this section 115 of this 
proposed legislation would authorize the Attorney General to 
charge as an adult in Federal court a juvenile who is 16 years 
or older and commits a crime of violence, but not mandate it.
    Mr. Shepherd. That's correct.
    Mr. Lungren. So that would be judicious application, you 
would hope, by the Attorney General. You wouldn't object to 
giving him that authority, would you?
    Mr. Shepherd. I have some concerns about it because of the 
broad implications of what may be gang activity where the 
juvenile's involvement may be far less than it would be if he 
were being charged with the specific offense the person engaged 
in.
    Mr. Lungren. Even though, under section 115, it requires 
the commission of a crime of violence.
    Mr. Shepherd. Yes, it does, but he could be a lookout for a 
crime of violence, and, in most States, that could be weeded 
out through the judicial transfer process.
    Mr. Lungren. In California, actually--you said positive 
things about California--we allow, for certain violent crimes, 
juveniles as young as 14 to be considered for adult court. 
Initially, when I became Attorney General, I didn't support 
that, but over the course of the period of time that I was 
Attorney General, I saw the violence that was visited upon our 
communities by gang members who were ever and ever younger, 
and, actually, I championed and actually wrote the legislation 
to allow that to occur.
    And I think we're confronted with something that Ms. Guess 
talks about, which is it makes very little difference to the 
victim whether the perpetrator is 16 or 17 or 18. They're just 
as damaged or just as dead. And I'm not trying to suggest it's 
an easy question, but it is something that I have mulled over 
in my mind as we had to deal with the tremendous violent 
problem that we had, and I must say that, contrary to what you 
suggest that this approach doesn't work, at least the facts 
bear up in California where you have a 50 percent drop in 
homicide rate among adults and among juveniles that I think 
there were lives saved and there were people that were much 
safer as a result.
    Thank you, Mr. Chairman.
    Mr. Forbes. Thank you, Congressman.
    Now we'd like to recognize for 5 minutes Mr. Conyers.
    Mr. Conyers. Thank you very much.
    See, the problem that we're having is that while we're 
talking about transferring more punitive legislation to the 
Federal level, we're cutting Federal funding for juvenile 
justice, and I don't think that is going to work out too well.
    We've found that this kind of a problem is going to lead us 
into the two schools of thought, the one that an enlightened 
former Member, Congressman Lungren, had which descended into a 
very narrow, restricted, punitive type attitude which I hope he 
is now reconsidering in coming back into the fold of those of 
us who support bringing some sense to this problem, not just 
punishment. As Mr. Fitzgerald pointed out, you can't get at all 
of them through the courts. It's just too many. We've got to 
begin to look more at some of these other problems that cause 
it.
    Mr. Paul Logli, did you know former Police Chief of Los 
Angeles, Mr. William Bratton?
    Mr. Logli. I'm certainly familiar with the name and his 
reputation, sir.
    Mr. Conyers. Sure. Right. What about the late Johnny 
Cochran, the lawyer?
    Mr. Logli. I'm certainly familiar with him, as well.
    Mr. Conyers. Well, they're all recommending reports that 
I'd like to commend to my colleagues on the Committee as well 
as the witnesses, a report from Fight Crime: Invest in Kids, 
and another, ``Childhood on Trial: The Failure of Trying and 
Sentencing Youth in Adult Criminal Court.''
    Mr. Fitzgerald, you would prefer, I assume, to keep most of 
these trials, wherever practical, in the State courts?
    Mr. Fitzgerald. I would presume that we would select out 
those juveniles that we think merit particular attention for 
Federal prosecution. That's why, as I think Congressman Lungren 
pointed out, the bill talks about authorizing the transfer to 
Federal court, not mandating it, because it would be for the 
prosecutors to select those cases that are most egregious that 
warrant Federal prosecution, such as a murder by a 17-year-old.
    Mr. Conyers. Congressman Robert Scott has let me look at a 
letter from the Judicial Conference of the United States dated 
April 1 of this year to the Chairman of the Subcommittee, and 
they make a point that I'd like to see if you'd agree with.
    As you know, the primary responsibility for prosecuting 
juveniles has traditionally been reserved for the States. The 
Federal criminal justice system has little experience and few 
resources to deal with more than the handful of juveniles that 
currently are in the Federal system. The Judicial Conference 
has maintained a longstanding position that criminal 
prosecution should be limited to those offenses that cannot or 
should not be prosecuted in State courts. At its September 1997 
meeting, after similar legislation had been proposed by 
conference, the Judicial Conference affirmed that this policy 
is particularly applicable to the prosecution of juveniles. 
Does that comport with your general view on the subject?
    Mr. Fitzgerald. No, but I would say this, Congressman. 
Here's what I have in mind. In the situation where there's a 
housing project taken over by a gang and requires a Federal 
prosecution to dislodge the gang from the project so that 
everyone else who lives there can be sort of free, in that 
circumstance, if we arrested 15 members who were involved in 
murders and attempted murders and one was a 17-year-old, to 
take the system and prosecute 14 people in the Federal system--
--
    Mr. Conyers. Okay. Let me ask Professor Shepherd, what do 
you think of the judges pleading with the Congress not to do 
any more juvenile justice specialties out of judiciary because 
they don't want it, they can't handle it, and it's more 
appropriate at the State level?
    Mr. Forbes. Mr. Shepherd, if you would respond to that 
question--the gentleman's time has expired--we will put that 
document in the record, without objection.
    Mr. Conyers. Thank you.
    Mr. Shepherd. I think that's been a consistent position, 
Congressman Conyers.
    Mr. Forbes. Now we recognize Congressman Delahunt from 
Massachusetts for 5 minutes.
    Mr. Delahunt. Mr. Chairman, I hope we have another round 
here. This has been very informative.
    I have a question for my colleague from California, Dan 
Lungren, because he speaks to the issue of transfer from 
juvenile to adult, my understanding is that in California, it's 
not the prosecutor's call. There is judicial intervention in 
the juvenile justice system that allows for transfer to the 
adult system. I think that's the case in most States.
    I served 22 years as the District Attorney and I certainly, 
on the right kind of occasions, and I think that's what you're 
referring to, Mr. Fitzgerald, aggressively pursue transfer to 
the adult correctional facility because there are situations 
where they are 17 or under, but given the right criteria, they 
deserve to be prosecuted in the adult system.
    So I think we've got to be very, very precise here. 
District Attorney, is it Logli?
    Mr. Logli. Logli.
    Mr. Delahunt. Logli. I tend to agree with the former 
Attorney General of the United States, who also was from 
California, Mr. Meese, about the federalization of State 
crimes. I mean, what's the position? You represent the National 
District Association, the NDA here, and----
    Mr. Logli. Thank you, Congressman. First off, we believe we 
can handle the typical juvenile type of crime that we've been 
discussing. But I looked at this legislation as more 
importantly dealing with these transnational gangs, the adult 
gangs, the violent gangs that are not only in this nation but 
also come out of other nations in this hemisphere. And when I 
looked at this bill from the standpoint of a local prosecutor, 
I looked at the resources that Federal authorities, if they 
have jurisdiction on certain crimes committed by these 
transnational adult violent crimes, they can bring their 
technical resources to bear that many States--our technical 
resources are not as great as the Federal resources--wire taps, 
eavesdrops, that type of thing.
    Mr. Delahunt. I understand that, and that makes good sense.
    Mr. Logli. Thank you.
    Mr. Delahunt. But I mean, that can happen now. I mean, we 
all, I'm sure in your experience and the U.S. Attorney's 
experience, we've all worked with task forces. You know, I 
don't know whether this adds anything to a particular task 
force. We have a task force on gangs in the Boston area. We 
have a task force on drugs. We have a task force on serious 
things where we bring to bear, if you will, Federal resources 
and where there are violations of criminal statutes and 
violations of State criminal codes, we sit around the table and 
talk and figure out where it goes.
    I don't know what this really adds, particularly when you 
give--I think in response to a question by Mr. Scott, we're 
cutting juvenile justice funding. I mean, is this kind of a way 
to paper over the fact that we're not committing the resources 
that are necessary for local and State prosecutors, working 
with U.S. Attorneys, to go out and to make sure these gangs are 
disassembled? I mean, we can talk about mandatory sentences. We 
can talk about a lot of different things. But the reality is, 
what we're trying to do is reduce crime, and again, given the 
observations made by my friend and colleague from California, 
the former Attorney General in that State, I dare say, we don't 
have a lot of mandatory crimes in the Commonwealth of 
Massachusetts, but we did one, I think, outstanding job in 
terms of reducing the incidence of homicide and all kinds of 
violent crime to a point that was historical in nature because 
we funded a comprehensive approach to juvenile justice.
    Mr. Fitzgerald, do you have any comments?
    Mr. Fitzgerald. I guess----
    Mr. Delahunt. By the way, does RICO apply?
    Mr. Fitzgerald. We can----
    Mr. Delahunt. What about using--don't we have a RICO 
statute? I mean, we're talking about gangs. Where's the 
utilization of the RICO statute in terms of gangs?
    Mr. Fitzgerald. I'll answer the two questions. The first 
question, the reason why we'd need the option, for example, for 
prosecuting a juvenile would be in the situation if there were 
multiple murders or a murder with multiple perpetrators. If 
there were five people who committed the murder and one was a 
juvenile, it wouldn't make sense, if this was a Federal 
prosecution at that housing project, to say, okay, we're going 
to try this twice and put the victims and the witnesses through 
the pain of two----
    Mr. Delahunt. With all due respect, let me tell you 
something, okay. If you come into my jurisdiction, when I was 
the District Attorney in the greater Boston area and there were 
five murders, you're not going to prosecute murders. You're 
going to be part of a task force and I'm going to prosecute the 
adults and the juveniles and most likely will prosecute the 
juvenile in the adult system. So we don't need any Federal 
statute to tell local prosecutors that they can't try murder 
cases because, believe me, with all due respect to U.S. 
Attorneys, they do a far superior job in prosecuting crimes of 
violence than most U.S. Attorneys.
    Mr. Fitzgerald. And I'll give you an example. What we do, 
when we have prosecuted RICOs for drug offenses and murders 
included, we often do that jointly with the State, bringing in 
Assistant State's Attorneys as specials.
    Mr. Delahunt. Cross-designations.
    Mr. Fitzgerald. Cross-designation, and we decide which is 
the most appropriate forum. When we took down the Mafia Insane 
Vice Lords, we took 47 Federal and 58 State. My point is to say 
that if we decide with the State's Attorney's Office, perhaps 
with them joining our team in court to prosecute in Federal 
court a RICO that involves drugs and murders, if there's one 
juvenile in there and there are eight adults, it would put 
everyone, the court system as well as the victims and 
witnesses, through double the pain and the cost and the time if 
we had to separate the juvenile out.
    Mr. Delahunt. But there is concurrent jurisdiction, Mr. 
Fitzgerald.
    Mr. Fitzgerald. Yes.
    Mr. Delahunt. And oftentimes, in my experience working with 
the U.S. Attorney's Office in Boston, there would be concurrent 
prosecutions. We would sequence them so that the State would 
proceed first in cases where there was traditional State 
jurisdiction, and if there were Federal violations 
thereafterward, we'd have them incarcerated, and then if the 
Feds wanted to prosecute them so that they can secure and on 
and after sentence, that's what they would do.
    Mr. Forbes. And with that closing statement, the 
gentleman's time has expired.
    I'd like to thank the witnesses for their testimony. The 
Subcommittee very much appreciates your contribution.
    In order to ensure a full record and adequate consideration 
of this important issue, the record will be left open for 
additional submissions for 7 days. Also, any written questions 
that a Member wants to submit should be submitted within the 
same 7-day period.
    This concludes the legislative hearing of H.R. 1279, the 
``Gang Deterrence and Community Protection Act of 2005.'' Thank 
you for your cooperation. The Subcommittee----
    Mr. Scott. Mr. Chairman, we have letters----
    Mr. Forbes. Oh, I'm sorry. All the letters will be 
submitted, without objection, and will be recognized in the 
record, and you have 7 days for any additional ones that you'd 
like to put in.
    The hearing is adjourned.
    [Whereupon, at 3:21 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Prepared Statement of the Honorable John Conyers, a Representative in 
 Congress from the State of Michigan, and Ranking Member, Committee on 
                             the Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
   Responses to Questions for the Record submitted by the Honorable 
    Patrick Fitzgerald, U.S. Attorney for the Northern District of 
                  Illinois, U.S. Department of Justice

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
       Prepared Statement of the Honorable Sheila Jackson Lee, a 
           Representative in Congress from the State of Texas

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
 Letter from James D. Fox, Chief of the Newport News Police Department 
           to the Honorable J. Randy Forbes (March 29, 2005)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
Letter from Kenneth C. Bauman, member of the Board of Directors for the 
   National Association of Assistant United States Attorneys to the 
         Honorable F. James Sensenbrenner, Jr. (April 29, 2005)



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
   Letter from Michael A. Fry, General Counsel, Major Cities Chiefs 
  Association to the Honorable F. James Sensenbrenner, Jr. (April 15, 
                                 2005)


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
Letter from Roy L. Burns, President, Association for Los Angeles Deputy 
 Sheriffs to the Honorable F. James Sensenbrenner, Jr. (April 20, 2005)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
Letter from Wesley D. McBride, President, California Gang Investigators 
  Association to the Honorable F. James Sensenbrenner, Jr. (April 25, 
                                 2005)


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
 Letter from Eddie J. Jordan, Jr., District Attorney of New Orleans to 
       the Honorable F. James Sensenbrenner, Jr. (April 18, 2005)


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
   Letter from Donald Baldwin, Washington Director, Federal Criminal 
Investigators Association to the Honorable F. James Sensenbrenner, Jr. 
                            (April 22, 2005)


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
 Letter from Chuck Canterbury, National President, Fraternal Order of 
        Police to the Honorable J. Randy Forbes (April 4, 2005)



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
  Letter from Dennis Slocumb, International Executive Vice President, 
 International Union of Police Associations to the Honorable F. James 
                  Sensenbrenner, Jr. (Arpil 26, 2005)



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
  Letter from James J. Fotis, Executive Director, The Law Enforcement 
Alliance of America to the Honorable F. James Sensenbrenner, Jr. (April 
                               19, 2005)





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
 Letter from Sheriff Michael J. Bouchard, Vice President, Legislative 
Affairs, and Sheriff James A. Karnes, President, Major County Sheriffs' 
  Association to the Honorable F. James Sensenbrenner, Jr. (April 20, 
                                 2005)




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
    Letter from Richard Delonis, President, National Association of 
      Assistant United States Attorneys to the Honorable F. James 
                    Sensenbrenner, Jr. (May 2, 2005)



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
     Letter from William J. Johnson, Executive Director, National 
     Association of Police Organizations to the Honorable F. James 
                  Sensenbrenner, Jr. (April 15, 2005)


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
Letter from Felipe A. Ortiz, National President, National Latino Peace 
Officers Association to the Honorale F. James Sensenbrenner, Jr. (April 
                               18, 2005)


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
  Letter from Thomas N. Faust, Executive Director, National Sheriffs' 
  Association to the Honorable F. James Sensenbrenner, Jr. (April 19, 
                                 2005)


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
 Letter from Casey L. Perry, Chairman, National Troopers Coalition to 
       the Honorable F. James Sensenbrenner, Jr. (April 19, 2005)


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
  Letter from Tyrone Parker, Laura W. Murphy, et al. to the Honorable 
    Howard Coble and the Honorable Robert C. Scott (April 11, 2005)


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
 Letter from National Hispanic Organizations to the Honorable F. James 
 Sensenbrenner, Jr. and the Honorable John Conyers (April 20, 2005 and 
                             May 10, 2005)


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
     Letter from the Association of Oil Pipe Lines, Business Civil 
    Liberties, Inc., et al., to the Honorable Howard Coble and the 
               Honorable Robert C. Scott (April 12, 2005)


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
 Letter from Laura W. Murphy, Tonya McClary, et al., to the Honorable 
     Howard Coble and the Honorable Robert C. Scott (April 4, 2005)




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
     Letter from Laura W. Murphy, Director, and Jesselyn McCurdy, 
 Legislative Counsel, American Civil Liberties Union to the Honorable 
    Howard Coble and the Honorable Robert C. Scott (April 15, 2005)



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
Letter from Julie Stewart, President, and Mary Price, General Counsel, 
 Families Against Mandatory Minimums to the Honorable Howard Coble and 
             the Honorable Robert C. Scott (April 8, 2005)



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
  Letter from the Thomas W. Hiller, II, Federal Public Defender, and 
Chair, Legislative Expert Panel, Federal Public and Community Defenders 
  to the Honorable F. James Sensenbrenner, Jr. and the Honorable John 
                        Conyers (April 21, 2005)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
       Letter from Members of Congress to the Honorable F. James 
Sensenbrenner, Jr. and the Honorable John Conyers, Jr. (April 19, 2005)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
 Letter from Leonidas Ralph Mecham, Secretary, Judicial Conference of 
    the United States to the Honorable Howard Coble (April 1, 2005)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
 Letter from Janet Murguia, President and CEO, National Council of La 
  Raza to the Honorable F. James Sensenbrenner, Jr. and the Honorable 
             John Conyers (April 13, 2005 and May 9, 2005)




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
Letter from Virginia Coalition for Juvenile Justice to the Honorable J. 
                      Randy Forbes (April 4, 2005)


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
  Letter from Coalition of National and Regional Organizations to the 
 Honorable F. James Sensenbrenner, Jr. and the Honorable John Conyers 
                            (April 8, 2005)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
 Letter from Morna A. Murray, Co-chair, National Juvenile Justice and 
      Delinquency Prevention Coalition to the Honorable F. James 
   Sensenbrenner, Jr. and the Honorable John Conyers (April 8, 2005)


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
  ``Caught in the Crossfire: Arresting Gang Violence By Investing in 
       Kids,'' a report submitted by Fight Crime: Invest in Kids

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
   Jason Ziedenberg, ``What works to deter gangs?'' The Detroit Free 
                         Press, April 12, 2005

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
``DOJ Youth Violence and Youth Gang Prevention Best Practices Protocols 




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
        QuickTime presentation, ``Adolescent Brain Development''



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
 ``Estimates of Prison Impact of H.R. 1279, '' submitted by the United 
                      States Sentencing Commission

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
``Childhood On Trial: The Failure of Trying & Sentencing Youth in Adult 
 Criminal Court,'' a report submitted by Coalition for Juvenile Justice



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
Letter from David G. Wilson, Executive Director, Association of Former 
 Federal Narcotics Agents to the Honorable F. James Sensenbrenner, Jr. 
                            (July 23, 2005)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
Nancy Bartley, ``Lawmakers rethinking hard line on sentencing of young 
             offenders,'' The Seattle Times, April 14, 2005


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
